<html>
<title> - FISHERIES TREATIES AND PORT STATE MEASURES AGREEMENTS</title>
<body><pre>[Senate Hearing 113-482]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-482

         FISHERIES TREATIES AND PORT STATE MEASURES AGREEMENTS

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 12, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                       U.S. GOVERNMENT PRINTING OFFICE 

91-389 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        

  














                            C O N T E N T S

                              ----------                              
                                                                   Page

    Balton, Hon. David A., Deputy Assistant Secretary for Oceans 
  and Fisheries, Bureau of Oceans and International Environmental 
  and Scientific Affairs, U.S. Department of State, Washington, 
  DC.............................................................     6
      Prepared statement.........................................     8
    Gleason, Mark, Executive Director, Alaska Bering Sea 
  Crabbers, Seattle, WA..........................................    37
      Prepared statement.........................................    39
    Kane, Raymond, Outreach Coordinator, Cape Cod Fishermen's 
  Alliance, Chatham, MA..........................................    28
      Prepared statement.........................................    30
    Kenney, Hon. Admiral Frederick J., Judge Advocate General and 
  Chief Counsel, U.S. Coast Guard, Washington, DC................    23
      Prepared statement.........................................    25
    Lagon, Hon. Mark P., Global Politics and Security Chair, 
  Master of Science in Foreign Service Program, Georgetown 
  University, and Adjunct Senior Fellow for Human Rights, Council 
  on Foreign Relations, Washington, DC...........................    31
      Prepared statement.........................................    33
    Markey, Hon. Edward J., U.S. Senator From Massachusetts, 
  opening statement..............................................     1
    Murkowski, Hon. Lisa, U.S. Senator From Alaska...............    20
      Prepared statement.........................................    22
    Smith, Russell F. III, Deputy Assistant Secretary for 
  International Fisheries, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce, Washington, DC....    12
      Prepared statement.........................................    13
    Whitehouse, Hon. Sheldon, U.S. Senator From Rhode Island.....     3
      Prepared statement.........................................     4


              Additional Material Submitted for the Record

    Response of Deputy Assistant Secretary David Balton to 
  Question Submitted by Senator Robert Menendez..................    43
    Responses of Russell Smith III to Questions Submitted by 
  Senator Marco Rubio............................................    45
    Responses of Adm. Frederick J. Kenney to Questions Submitted 
  by Senator Marco Rubio.........................................    46
    Responses of Ambassador Mark Lagon to Questions Submitted by 
  Senator Marco Rubio............................................    47
    Letter Submitted on Behalf of the Federal Law Enforcement 
  Officers Association...........................................    50
    Letter Submitted on Behalf of the Joint Ocean Commission 
  Initiative.....................................................    52
    Letter Submitted on Behalf of Various Stakeholders Urging 
  Ratification of the Treaties...................................    54

                                 (iii)

  

 
         FISHERIES TREATIES AND PORT STATE MEASURES AGREEMENTS

                              ----------                              


                      WEDNESDAY, FEBRUARY 12, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                     Washington, DC
    The committee met, pursuant to notice, at 2:38 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Edward J. 
Markey presiding.
    Present: Senators Markey and Rubio.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Welcome. Good afternoon. The committee will 
come to order. Today we will hear testimony on the Port State 
Measures Agreement and three regional fishing management 
organization agreements. All of them will help combat illegal 
fishing and improve the management of fisheries in 
international waters, to the benefit of U.S. fishermen, our 
seafood industry, and U.S. security interests.
    The ocean is vast. From the land it is hard to contemplate 
its limits or how illegal fishing in distant waters might 
impact the United States. But like dropping a pebble in a pond, 
the ripple effects of illegal fishing expand to all shores. The 
impact of illegal fishing has already reached Cape Cod and the 
ports of New England, where commercial fishing has been the 
lifeblood of communities for centuries. Our small boat 
fishermen have always supplemented their cod catches with a 
variety of fish. Bluefin tuna and swordfish have been 
especially important. Landing one can mean the difference 
between a profitable fishing season or not, between the paying 
of the mortgage on time or not, between helping with a 
daughter's college bills or not. With our cod stocks struggling 
and facing the ongoing impacts of climate change, revenue from 
other fish becomes even more important.
    But there is not enough American tuna or European tuna or 
African tuna. There is Atlantic tuna, and what happens in the 
Atlantic beyond any country's control can impact fishermen in 
every country.
    Today we will hear from a 40-year fishing veteran, Captain 
Ray Kane, about how illegal fishing far from our shores has an 
impact on the fishing lines and business bottom lines of the 
fishermen from his home port of Chatham, MA, and across New 
England.
    But this is not just an Atlantic problem. We will also hear 
about the challenges facing American crabbers in the Bering 
Sea. And it is not just American fishermen that suffer. If you 
watched the recent movie ``Captain Phillips'' about the Somali 
pirates hijacking the Maersk Alabama in 2009, you heard the 
pirates' leader mention foreign vessels taking away the Somali 
fish. As Somalia descended into chaos in the 1990s, they lost 
the ability to police their national waters. Foreign vessels 
moved in and depleted fish stocks that helped support coastal 
communities, increasing the incentive for Somalis to take up 
piracy.
    Sadly, their story has now come full circle. As the United 
States and our allies have increased efforts to protect 
shipping off the Horn of Africa, Somali pirates are now 
providing protection to the vessels engaged in illegal fishing. 
Of course, unscrupulous captains willing to harvest fish 
illegally are also willing to partake in other illegal 
activities.
    We will also hear testimony today about the connection 
between illegal fishing and human trafficking.
    The high seas will never be 100 percent secure, but the 
agreements that are the subject of this hearing will help. A 
fish is worthless unless it is sold at a dock. The Port State 
Measures Agreement will shrink the number of ports where 
illegal fishing boats can find safe harbor and the economic 
incentive to engage in illegal fishing. It will bring the rest 
of the world up to the standards of the United States and 
ensure fairness for our fishermen in the global market.
    The other three agreements will create and strengthen the 
rules for fishing in international waters that will improve 
conservation efforts and support sustainable management of 
important fish stocks.
    Our domestic fishermen are the first to feel the impacts of 
illegal fishing, both from reduction in fish to catch and 
reduction in the price they get when they can take fish to 
market. But illegal fishing and seafood fraud ripples through 
the entire seafood industry, from processors to restaurant 
owners to seafood lovers looking for a delicious meal.
    That is why organizations from the National Fisheries 
Institute to the Federal Law Enforcement Officers Association 
to conservation groups have written in support of the 
agreements we have before us today. I ask that these letters 
and statements be included in the record.
    Today's four agreements are important. I look forward to 
working with Chairman Menendez and Ranking Member Corker to 
move these through our committee quickly, to benefit our 
American fishermen and the seafood industry. U.S. fishery 
management is the most rigorous in the world. Our domestic laws 
already accomplish much of what is required under these 
agreements. But I look forward to working with my colleagues on 
the Commerce Committee to move any additional legislation 
necessary to ensure the full participation of the United 
States.
    Because of the rollcall confusion on the Senate floor at 
this particular point in time, Senator Rubio is a little bit 
delayed and requests that we proceed without him, and we will 
continue this hearing, although there are at least six 
additional rollcalls that are pending on the Senate floor.
    So bear with us in the course of this afternoon.
    Our first witness, Senator Sheldon Whitehouse from Rhode 
Island, is one of the cochairs of the Senate Ocean Caucus along 
with Senator Murkowski, and he has been working to educate the 
Senate and the public about the importance of these agreements 
that come before the committee today. We welcome you, Senator 
Whitehouse. Whenever you are ready, please begin.

             STATEMENT OF HON. SHELDON WHITEHOUSE, 
                 U.S. SENATOR FROM RHODE ISLAND

    Senator Whitehouse. Thank you, Senator Markey, for having 
me here this afternoon for this hearing on international 
fisheries. As you mentioned, I serve as a cochair of the Senate 
Oceans Caucus along with my colleague, Senator Murkowski. For 
similar reasons to those that detain Senator Rubio, she is not 
here presently either, and I ask unanimous consent that 
whatever statement she may submit be incorporated into the 
record as if she were here with me now.
    Senator Markey. Without objection, so ordered.
    Senator Whitehouse. She and Senator Begich and Senator 
Wicker are the four cochairs of our Senate Oceans Caucus, which 
works to find bipartisan common ground on issues that affect 
our oceans and coasts. One area that we all agree deserves our 
attention is illegal, unregulated, and unreported fishing, 
commonly referred to as ``pirate fishing.''
    The work of our caucus on this issue builds on the 
bipartisan tradition in the Senate of support for international 
fisheries management. Since the 1950s, the Senate has ratified 
at least 15 international fisheries treaties with bipartisan 
support, not to mention additional amendments to existing 
treaties.
    Fishing industries, as the Senator from Massachusetts well 
knows, are integral to coastal economies. Indeed, in 2011 U.S. 
commercial fish landings generated $5.3 billion and 
recreational anglers spent $26.8 billion.
    At the same time, however, we are seeing estimated 
worldwide losses due to pirate fishing between 10 and $23.5 
billion annually. Pirate fishing puts fishermen and processors 
in our home States who are playing by the rules at an unfair 
disadvantage. Pirate fishing is conducted outside laws that 
protect the fishery, and by cheating they can operate at a 
lower cost and undercut the prices U.S. fishermen must set 
following the rules.
    The problem is not just local. Fish migrate. Pirate fishing 
in foreign countries, on the high seas, and of course in our 
own backyard, can jeopardize migratory fish stocks that our 
domestic fishermen rely on. Quite simply, this is a problem we 
cannot afford to ignore.
    The agreement on Port State Measures to prevent, deter, and 
eliminate illegal, unreported, and unregulated fishing was 
adopted in response to this issue. It will allow the United 
States and other countries to bar pirate fishing vessels from 
entering ports and bringing their goods to market. Information-
sharing networks to track offenders and a compliance structure 
are also established under the agreement.
    The agreement has strong support outside of this Chamber. 
Here is what Chris Lischewski, President and CEO of Bumble Bee 
Foods, has said, ``IUU fishing is a multibillion dollar 
industry that undermines our global conservation and 
sustainability efforts. Illegal fishing penalizes legitimate 
fishermen and processors and it must be stopped. While the 
United States has done a good job at developing laws to detect 
and deter IUU fishing, other nations have not. We strongly 
support the agreement on Port State Measures to prevent, deter, 
and eliminate illegal, unreported, and unregulated fishing 
because it creates an obligation for other nations to take 
action against IUU fishing.''
    That is the President of Bumble Bee Foods.
    Literally billions of dollars that could have gone into the 
hands of law-abiding fishermen and responsible seafood 
companies are lost every year. The Port State Measures 
Agreement gives us and others new tools to stop this thievery.
    Three other treaty documents have also been received in the 
Senate during the 113th Congress relating to high seas 
fisheries. Fair control measures and enforcement at this scale 
allows us to protect our fishermen by ensuring the longevity of 
the fish stocks on which they depend.
    The United States includes over 4 million square miles of 
the Pacific, Atlantic, and Arctic Oceans, the Gulf of Mexico, 
and the Caribbean Sea. Our fishermen and their industry 
partners can benefit from well-managed resources. Bill 
Ruckelshaus and Norm Mineta, both previously high-level 
political appointees in Republican and Democratic 
administrations respectively, cochair the Joint Ocean 
Commission Initiative. They offer this thought in a letter that 
I would like to submit for the record: ``Sustainable management 
of our ocean resources for current and future generations 
requires an international framework and a consistently applied 
rule of law across nations. Ratification of these treaties 
taken as a whole is an important step in this direction and 
helps affirm the role of the United States as a leader in 
protecting our global commons for the benefit and use of our 
citizens.''
    Senator Whitehouse. As cochairs of the Senate Oceans 
Caucus, Senator Murkowski and I express bipartisan support for 
the four pending international fisheries management treaties. 
We are now collecting signatures on a letter of support to 
Senate leadership. The Senate should ratify these treaties, 
which are supported by the Alaska Bering Sea Crabbers, National 
Fisheries Institute, Ocean Champions, World Wildlife Fund, Pew 
Charitable Trusts, and Environmental Defense Fund, among 
others.
    I thank you, chairman, for entertaining my thoughts here 
today.
    [The prepared statement of Senator Whitehouse follows:]

            Prepared Statement of Senator Sheldon Whitehouse

    Thank you Senator Markey, Chairman Menendez, and Ranking Member 
Corker, for having me this afternoon and for holding this hearing on 
international fisheries. I am privileged to serve, along with Senators 
Murkowski, Begich, and Wicker, as a cochair of the Senate Oceans 
Caucus, which works to find bipartisan common ground on issues 
affecting our oceans and coasts, and the people and communities that 
rely on them.
    One area we all agree deserves our attention is illegal, 
unregulated, and unreported fishing; commonly referred to as pirate 
fishing. The work of our Caucus on this issue builds on the bipartisan 
tradition in the Senate of support for international fisheries 
management. Since the 1950s, the Senate has ratified at least 15 
international fisheries treaties with bipartisan support, not to 
mention additional amendments to existing treaties.
    Fishing industries are integral to coastal economies. Indeed, in 
2011, U.S. commercial fish landings generated $5.3 billion and 
recreational anglers spent $26.8 billion. At the same time, however, we 
are seeing estimated worldwide losses due to pirate fishing between $10 
and $23.5 billion annually.
    Pirate fishing puts fishermen and processors in our home States who 
are playing by the rules at an unfair disadvantage. Pirate fishing is 
conducted outside laws that protect the fishery, and by cheating they 
can operate at a lower cost and undercut the prices U.S. fishermen must 
set following the rules.
    The problem isn't just local. Fish migrate. Pirate fishing in 
foreign countries, on the high seas, and even in our own backyard can 
jeopardize migratory fish stocks that our domestic fishermen rely on.
    Quite simply, this is a problem we can't afford to ignore.
    The ``Agreement on Port State Measures to Prevent, Deter and 
Eliminate Illegal, Unreported and Unregulated Fishing'' was adopted in 
response to this issue. It will allow the U.S. and other countries to 
bar pirate fishing vessels from entering ports and bringing their goods 
to market. Information-sharing networks to track offenders and a 
compliance structure are also established under the agreement.
    The agreement has strong support outside of this chamber. Here's 
what Chris Lischewski, CEO and President of Bumble Bee Foods, has said: 
``IUU fishing is a multibillion dollar industry that undermines our 
global conservation and sustainability efforts. Illegal fishing 
penalizes legitimate fishermen and processors and it must be stopped. 
While the United States has done a good job at developing laws to 
detect and deter IUU fishing, other nations have not. We strongly 
support the `Agreement on Port State Measures to Prevent, Deter, and 
Eliminate Illegal, Unreported, and Unregulated Fishing' because it 
creates an obligation for other nations to take action against IUU 
fishing.''
    Literally billions of dollars that could have gone into the hands 
of law-abiding fishermen and responsible seafood companies are lost 
every year. The Port States Measures Agreement gives us and others new 
tools to stop this thievery.
    Three other treaty documents have also been received in the Senate 
during the 113th Congress relating to managing high seas fisheries. 
Fair control measures and enforcement at this scale allows us to 
protect our fishermen by ensuring the longevity of fish stocks.
    The United States includes over 4 million square miles of the 
Pacific, Atlantic, and Arctic Oceans, the Gulf of Mexico, and the 
Caribbean Sea. Our fishermen and their industry partners can benefit 
from well-managed resources.
    Bill Ruckelshaus and Norm Mineta, both previously high-level 
political appointees in Republican and Democratic administrations 
respectively, cochair the Joint Ocean Commission Initiative. They offer 
this thought in a letter I would like to submit for the record: 
``Sustainable management of our ocean resources for current and future 
generations requires an international framework and a consistently 
applied rule of law across nations. Ratification of these treaties, 
taken as a whole, is an important step in this direction and helps 
affirm the role of the United States as a leader in protecting our 
global commons for the benefit and use of our citizens.''
    As cochairs of the Senate Oceans Caucus we express bipartisan 
support for the four pending international fisheries management 
treaties. We are now collecting signatures on a letter of support to 
Senate leadership.
    The Senate should ratify these treaties, which are supported by the 
Alaska Bering Sea Crabbers, National Fisheries Institute, Ocean 
Champions, World Wildlife Fund, The Pew Charitable Trusts, and 
Environmental Defense Fund.

    Senator Markey. Thank you, Senator, very much, and thank 
you for the organizing around this very important issue which 
you are leading. We thank you and we thank Senator Murkowski.
    Now we are going to turn to our second panel: the Honorable 
David Balton, Mr. Russell Smith, and Rear Admiral Frederick 
Kenney. If you could each come up and sit at the panel, we can 
begin.

[Pause.]

    Senator Markey. I would like to thank the witnesses and 
their colleagues for their hard work in bringing the agreements 
before us today. I will briefly introduce them all and then we 
can hear their testimony.
    Our first witness is Ambassador David Balton. He is the 
Deputy Assistant Secretary for Oceans and Fisheries in the 
Bureau of Oceans and International Environmental and Scientific 
Affairs at the U.S. Department of State. He has served in that 
position since February of 2009.
    Our second witness is Russell Smith. He is the Deputy 
Assistant Secretary for International Fisheries at the National 
Oceanic and Atmospheric Administration. He is currently serving 
as the Acting United States Federal Commissioner for both the 
Western and Central Pacific Fisheries Commissions and the 
International Convention for the Conservation of Atlantic 
Tunas.
    Our third witness is Rear Admiral Frederick J. Kenney. He 
is the Judge Advocate General and Chief Counsel of the Coast 
Guard. His responsibilities include delivering legal services 
in support of Coast Guard missions.
    Ambassador Balton, we will begin with you and then we will 
go down the table in the order of the seating arrangement. So 
welcome, sir. Whenever you feel comfortable, please begin.

 STATEMENT OF HON. DAVID A. BALTON, DEPUTY ASSISTANT SECRETARY 
 FOR OCEANS AND FISHERIES, BUREAU OF OCEANS AND INTERNATIONAL 
ENVIRONMENTAL AND SCIENTIFIC AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Balton. Thank you very much, Mr. Chairman. I am 
pleased to testify today in support of the four international 
fisheries agreements pending before the committee. With your 
permission, I would like my written statement submitted for the 
record.
    Senator Markey. Without objection, so ordered.
    Ambassador Balton. These four agreements address critical 
fisheries resources. Two new regional agreements cover high 
seas fisheries in the North Pacific and South Pacific Oceans 
respectively. The third agreement amends a treaty that created 
the Northwest Atlantic Fisheries Organization, of which the 
United States is already a member. The fourth agreement, on 
Port State Measures, is global in nature and, as you said, it 
addresses what is commonly referred to as pirate fishing or 
illegal, unreported, and unregulated fishing.
    We commend the committee for considering these agreements. 
U.S. ratification will allow our Nation to reinforce its 
leadership role on oceans issues and to advance U.S. interests 
in marine fisheries. Each of these agreements has strong 
support from a broad range of stakeholders, including the U.S. 
fishing industry, the environmental and scientific communities. 
Representatives of these communities participated actively in 
the negotiations of these agreements. Let me say just a word or 
two about each of them.
    The first agreement--and I think you will see a chart on 
the easel there--is the Convention on Fisheries Resources of 
the North Pacific Ocean. This treaty will establish the North 
Pacific Fisheries Commission, through which parties will 
cooperate to manage fisheries across an enormous expanse of 
high seas in the North Pacific Ocean. This area includes areas 
immediately adjacent to the U.S. Exclusive Economic Zone off 
Alaska, the Pacific West Coast, Hawaii, and other U.S. 
territories and possessions in the North Pacific.
    U.S. ratification would give the United States a strong 
voice in managing fishing activities just outside the U.S. EEZ 
that could have a direct impact on resources within our EEZ. 
Ratification will also ensure that U.S. vessels will have a 
legitimate right to participate in fisheries in this area.
    The second agreement covers high seas fisheries resources 
in the South Pacific region. The high seas areas covered here 
are near American Samoa and a number of other U.S. islands in 
this part of the world. The convention provides for proper 
management of fisheries in this region. Of particular 
importance is the fishery for jack mackerel off the coast of 
Chile, Peru, and Ecuador.
    The South Pacific Fisheries Convention has already entered 
into force and now has 12 contracting parties. Ratification 
will enable the United States to take its seat at the table and 
have an equal voice in managing these fisheries.
    As for the amendments to the Northwest Atlantic Convention, 
while the United States has already ratified the original 
convention in 1995 and has participated actively in the 
Northwest Atlantic Fisheries Organization, NAFO, ever since, 
the area covered by this agreement actually includes waters of 
the U.S. EEZ from Cape Hatteras to Maine. The original 
convention dates back to 1980 before the emergence of a number 
of key concepts in fisheries management. The amendments before 
the committee today essentially bring NAFO up to date. They 
will add rigor and transparency to NAFO's decisionmaking 
process, strengthen procedures for allocating catches, 
restraint overfishing, and adjust the formula for calculating 
dues.
    The final agreement, on Port State Measures, is the first 
binding global agreement specifically intended to combat 
illegal, unreported, and unregulated, or IUU, fishing. The 
United States was among the first nations that signed the 
agreement when it was adopted in 2009. As we have already 
heard, IUU fishing undermines efforts to conserve and manage 
shared fish stocks and threatens the sustainability of all 
fisheries. Estimated global losses range from $10 to $23.5 
billion each year.
    Moreover, illegal fishing activities are often intertwined 
with drug trafficking, labor exploitation, environmental 
degradation, and organized crime. U.S. ratification will give 
us additional tools to address these problems.
    Detecting IUU fishing at sea is difficult and expensive, 
but all fish caught at sea must ultimately come to port 
somewhere. The Port State Measures Agreement establishes 
standards for states to ensure that IUU-caught fish will not be 
landed, transshipped, packaged, or processed in their ports.
    The United States took a leadership role in the development 
of this agreement. Timely ratification would again underscore 
the commitment of our Nation to strengthening efforts at the 
global and national level to deter, detect, and eliminate IUU 
fishing.
    In closing, I would reiterate the importance of each of 
these agreements to the United States. Each one addresses a 
specific set of issues that, if not addressed, would threaten 
the sustainability of fisheries. Each has strong support from a 
broad and diverse range of U.S. stakeholders. We seek timely 
action by the Senate to provide its advice and consent to 
ratification.
    Thank you very much. I would be pleased to answer any 
questions you may have.
    [The prepared statement of Ambassador Balton follows:]

            Prepared Statement of Ambassador David A. Balton

    Mr. Chairman and members of the committee, I am Ambassador David 
Balton, Deputy Assistant Secretary of State for Oceans and Fisheries. I 
am pleased to testify before you today in support of the four 
international agreements being considered by the committee:

  <bullet> The Convention on the Conservation and Management of High 
        Seas Fisheries Resources of the North Pacific Ocean 
        (hereinafter ``NPFC Convention'');
  <bullet> The Convention on the Conservation and Management of High 
        Seas Fishery Resources of the South Pacific Ocean (hereinafter 
        ``SPRFMO Convention'');
  <bullet> Amendments to the Convention on Future Multilateral 
        Cooperation in the Northwest Atlantic Fisheries (hereinafter 
        ``NAFO Amendments''); and
  <bullet> The FAO Agreement on Port State Measures to Prevent, Deter 
        and Eliminate Illegal, Unreported and Unregulated Fishing 
        (hereinafter the ``Port State Measures Agreement'' or 
        ``PSMA'').

    Individually and collectively, these four agreements represent 
significant progress in protecting U.S. interests, advancing our 
international policies and priorities to conserve and manage shared-
living marine resources, to protect the broader marine environment from 
the effects of destructive fishing practices, and to prevent illegal 
fishing activities from undermining our global and regional efforts 
toward these ends. Each of these agreements has strong support from a 
broad range of stakeholders, including representatives of the U.S. 
fishing industry and the environmental and scientific communities, many 
of whom participated actively in the negotiations. For these reasons, 
we seek timely action by the Senate to provide its advice and consent 
to ratification.
    The United States has a strong record of international leadership 
to conserve and manage shared fishery resources in a sustainable way. 
In fact, doing so is vitally important to our efforts to manage 
resources in waters under United States jurisdiction. The United States 
is already a party to more than a dozen such regional agreements 
governing such diverse resources as tunas in the Pacific and Atlantic 
Oceans, groundfish in the North Atlantic Ocean and the Bering Sea, 
salmon in the North Pacific and North Atlantic Oceans, among others. We 
are also a party to the two most significant fisheries agreements 
adopted at the global level--the 1993 FAO High Seas Fisheries 
Compliance Agreement and the 1995 U.N. Fish Stocks Agreement. Because 
activities that take place on the high seas and in waters under the 
jurisdiction of other countries can have a direct impact on important 
U.S. fisheries, being a member of these regimes--and especially having 
a seat at the table in these organizations--is imperative.
    My colleague, Russell Smith, Deputy Assistant Secretary for 
International Fisheries at NOAA, will discuss the substance of these 
agreements from a conservation and management perspective and how their 
provisions support and enhance U.S. domestic fisheries management, 
while protecting the marine ecosystem. The remainder of my testimony 
will focus on how each of these agreements advances our international 
goals and objectives, including broad foreign policy objectives, and 
promotes responsible and sustainable use of our oceans resources.
                            npfc convention
    The NPFC Convention was adopted on February 24, 2012, signed by the 
United States on May 2, 2012, and transmitted to the Senate on April 
22, 2013. Once in force, the Convention will establish the North 
Pacific Fisheries Commission (NPFC) through which the Parties will 
cooperate to ensure the long-term and sustainable use of fisheries in 
the Convention Area. U.S. accession to the Convention will protect and 
advance important and significant U.S. interests. In particular, the 
Convention Area includes areas of the high seas immediately adjacent to 
the U.S. exclusive economic zone (EEZ) off Alaska, the Pacific west 
coast, Hawaii, and other U.S. territories and possessions in the North 
Pacific. Thus, U.S. accession is vital to ensuring that the United 
States has a strong voice in managing fishing activities outside the 
U.S. EEZ that could have a direct impact on resources within waters 
under U.S. jurisdiction. U.S. accession will also ensure that U.S. 
fisherman will have a legitimate right to participate in fisheries 
within the Convention Area on an equitable basis.
    As with the SPRFMO Convention, discussed below, negotiations toward 
the NPFC Convention were initiated in response to the growing concern 
of the international community toward the impacts of certain deep sea 
fishing practices, taking place outside areas of national jurisdiction, 
on a range of unique and endemic deep sea marine ecosystems including 
sea mounts, hydrothermal vents, deep sea and cold water coral 
communities, sponge fields, etc., collectively referred to as 
``vulnerable marine ecosystems.''
    This growing international concern was reflected most clearly in 
United Nations General Assembly (UNGA) Resolution 59/25, adopted on 
November 17, 2004, in which the UNGA: ``[Called] upon States urgently 
to cooperate in the establishment of new regional fisheries management 
organizations or arrangements, where necessary and appropriate, with 
the competence to regulate bottom fisheries and the impacts of fishing 
on vulnerable marine ecosystems in areas where no such relevant 
organization or arrangement exists.''
    In response to this call, delegations from Japan, Korea, Russia, 
and the United States met in Tokyo, Japan, in August 2006, to begin 
negotiations that led to the 2012 adoption of the NPFC Convention. 
Initially, the negotiations had a much narrower focus than the 
Convention that is before you for consideration today. Between 2006 and 
2008, the negotiations focused exclusively on bottom fisheries in the 
Northwest Pacific Ocean In particular, the discussions focused on 
bottom fisheries conducted by Japan, Korea, and Russia on the Emperor 
Seamounts, a chain of seamounts that extends from the North Hawaiian 
Ridge in the south, almost to the Aleutian Islands in the north.
    As the discussions continued, the United States pressed, against 
some resistance, to expand the scope of the negotiations in two ways. 
First, our delegation pressed to expand the geographic scope of the 
Convention to ensure that the waters adjacent to the U.S. exclusive 
economic zone of Alaska and the Pacific west coast (Washington, Oregon, 
and California) were included within the Convention Area. Second, we 
pressed to ensure that the Convention established management authority 
not only for bottom fisheries, but for all high seas fishery resources 
not covered by an existing international management regime. Other than 
the bottom fisheries on the Emperor Seamounts, the primary pelagic 
fisheries included under this expanded scope include the fisheries for 
Pacific saury and squid. This expansion of the scope of the 
negotiations brought Canada, China, and Taiwan (which participated as 
the fishing entity of Chinese Taipei) into the negotiations, in 
addition to the original four States listed above.
    The Convention will enter into force 180 days after receipt by the 
Depositary (the Government of Korea) of the fourth instrument of 
ratification, acceptance, approval, or accession. Japan was the first 
State to ratify the Convention. Canada, China, Korea, and Russia are 
all actively working to conclude their domestic procedures for 
ratification. As a result, there is a strong chance the Convention 
could enter into force in 2014 or early 2015.
    Finally, Mr. Chairman, the United States has played an active and 
significant role in the development of the Convention and the 
preparations for its entry into force. At the request of the 
participating delegations, I was honored to chair the last several 
sessions of the negotiations that led to the adoption of the Convention 
in 2012. Since that time, one of my colleagues at the State Department 
has chaired the Preparatory Conference which has conducted the vital 
work to prepare for the entry into force of the Convention and the 
establishment of the new Commission. In order to continue to play such 
a leadership role, the United States must be at the table as a member 
of the Commission at its first meeting.
                           sprfmo convention
    The SPRFMO Convention was adopted on November 14, 2009, signed by 
the United States on January 31, 2011, and transmitted to the Senate on 
April 22, 2013. The Convention establishes the South Pacific Regional 
Fisheries Management Organization (SPRFMO) through which the Parties 
will cooperate to ensure the long-term and sustainable use of fisheries 
in the Convention Area. Although the United States currently has no 
fishing activity for fish stocks covered by the Convention, accession 
to the Convention will yield significant benefits to U.S. interests. 
The Convention Area includes areas of the high seas closest to the U.S. 
territory of American Samoa, and immediately adjacent to the U.S. 
exclusive economic zone off a number of U.S. Pacific possessions 
including Jarvis, Howland and Baker Islands, Kingman Reef and Palmyra 
Atoll. Here again, U.S. accession is vital to ensuring that the United 
States has a strong voice in managing fishing activities outside the 
U.S. EEZ that could have a direct impact on resources within waters 
under U.S. jurisdiction.
    Moreover, to the extent that the NPFC and SPRFMO have comparable 
mandates for the North Pacific and South Pacific, respectively, the 
policies, practices, and agreements established under SPRFMO may well 
find resonance in the NPFC. As a result, active U.S. participation in 
SPRFMO will ensure that the work of SPRFMO results in such policies, 
practices, and agreements that would be acceptable to the United States 
in a broader context, including in the NPFC. Finally, as in the NPFC, 
U.S. accession to the SPRFMO Convention will ensure participatory 
rights for U.S. fishermen in fisheries within the Convention Area.
    As with the NPFC Convention discussed above, negotiations for the 
SPRFMO Convention were initiated in response to the call by the UNGA 
for States to cooperate to establish new agreements related to bottom 
fishing and the impacts of fishing on vulnerable marine ecosystems in 
area where no such relevant organization or arrangement existed at the 
time.
    Initial discussions on the establishment of such an organization 
took place between the Governments of Australia, Chile, and New Zealand 
in 2005. The discussions were quickly joined by a number of other 
countries and entities, including the United States, Belize, China, 
Denmark (in respect of the Faroe Islands), Ecuador, the European Union, 
Korea, Russia, Peru, several Pacific Island States, and Taiwan (again 
as the fishing entity of Chinese Taipei). As in the North Pacific 
negotiations, the scope of the negotiations expanded to include not 
only bottom fisheries but pelagic fish stocks not otherwise subject to 
management, the most significant of which is the fishery for jack 
mackerel off the coast of Chile, Peru, and Ecuador.
    The SPRFMO Convention entered into force on August 24, 2012, and 
currently has 12 Contracting Parties. The Commission has met twice, in 
January 2013 and January 2014, and has adopted measures for the 
management of jack mackerel and bottom fishing. The United States has 
participated in the first two meetings of the Commission as an 
observer. As a result, our ability to influence any decisions taken is 
significantly less than would be the case if the United States were a 
full member of the Commission. Ratification of the Convention will 
allow the United States to take its seat at the table with the other 
members of the Commission and have an equal voice in matters before the 
Commission.
                            nafo amendments
    The NAFO Amendments were adopted by the Northwest Atlantic 
Fisheries Organization (NAFO) September 28, 2007, and transmitted to 
the Senate on April 22, 2013. NAFO is charged with coordinating 
scientific study and cooperative management of the fisheries resources 
of the Northwest Atlantic Ocean, excluding salmon, tunas, and sedentary 
species of the Continental Shelf. The NAFO Convention Area includes the 
waters of the U.S. EEZ from Cape Hatteras to Maine, although NAFO 
management measures apply primarily in the high seas portion of the 
Convention Area.
    The United States joined NAFO in 1995, and has participated 
actively since, assuming leadership positions and working to advance 
key principles of sustainable fisheries management. Although many NAFO 
stocks remain at levels too low to support fishing, others are finally 
showing signs of rebuilding under NAFO management. After working for 
many years to secure viable allocations, last year the United States 
was able to begin fisheries for some of these NAFO-managed high seas 
stocks.
    Following international calls for regional fisheries management 
organizations to strengthen their effectiveness, NAFO launched a 
comprehensive reform process in 2005 intended to improve the way 
conservation and management measures are adopted, strengthen compliance 
and enforcement provisions, and revise its establishing Convention. The 
United States participated actively in this effort. Through it, we 
pushed to bring NAFO more in line with the principles of modern 
fisheries management and to address our particular concerns about catch 
allocations and fair participation.
    The resulting comprehensive amendments met all of our priorities. 
They add additional rigor and transparency to the decisionmaking 
process, establish a dispute settlement procedure, improve the guiding 
language for allocating catches, formally incorporate key concepts 
including transparency and broader ecosystem considerations, and make 
the basis for calculating Contracting Parties' budget contributions 
more equitable.
    The last point was a major U.S. priority. Under the Convention, 
part of the NAFO budget is divided equally among all Contracting 
Parties and the rest is split according to Parties' catches of certain 
species in the Convention Area, including within coastal States EEZs. 
As a result, coastal States such as the United States pay a 
disproportionately high share of NAFO's budget. The United States 
pushed to rebalance the dues to better match the benefits Parties 
receive. The amendments do not change the basic formula, but they amend 
the list of stocks used to calculate Parties' respective catches to 
include only species under NAFO management or for which NAFO provides 
scientific advice, and remove those fished exclusively in waters under 
a coastal State's jurisdiction. This change is expected to reduce U.S. 
dues by almost one-third.
    The NAFO Amendments will take effect 120 days after Canada, as 
Depositary, receives notification of approval from nine Contracting 
Parties. To date five--Canada, Cuba, the European Union, Norway, and 
the Russian Federation--have deposited instruments of approval. We 
understand one other is imminent, and two others are expected by this 
fall. Speedy ratification may enable the United States to provide the 
last approval needed for the NAFO Amendments to take effect.
                     port state measures agreement
    The last Agreement I will discuss, Mr. Chairman, is different from 
the others. It is a global agreement, and is, in fact, the first 
binding global agreement specifically intended to combat illegal, 
unreported, and unregulated--or IUU--fishing. The United States signed 
the Port State Measures Agreement on November 22, 2009, and it was 
transmitted to the Senate November 14, 2011.
    IUU fishing undermines efforts to conserve and manage shared fish 
stocks and threatens the sustainability of all fisheries. Estimates of 
global losses due to IUU fishing range from $10 to $23 billion each 
year. The large number of developing States that depend on fisheries 
for food security and export income are particularly vulnerable. A 
secondary benefit to ratification of the Port State Measures Agreement 
and the other treaties under consideration is that it will give the 
United States additional tools to address illegal activities that are 
often intertwined with IUU fishing, including drug trafficking, labor 
exploitation, environmental degradation, and organized crime.
    Since IUU fishers can operate anywhere, detecting activities at sea 
is difficult and expensive. But, in order to sell or trade their 
illegal catch, they ultimately need to ensure that it is brought to a 
port for landing or transshipment. The Port State Measures Agreement 
establishes standards and requirements for port States to ensure IUU-
caught fish will not be landed, transshipped, packaged, or processed in 
their ports.
    Here again, the United States took a leadership role in the 
development of this agreement, hosting and Chairing the initial 
informal meetings that led to the agreement to engage in formal 
negotiations toward a legally binding instrument. Timely ratification 
would again underscore the commitment of the United States to 
strengthening efforts at the global and national levels to detect, 
deter, and eliminate IUU fishing.
                               conclusion
    In closing, I would simply reiterate the importance of each of 
these agreements to advancing U.S. economic interests and management 
objectives at the international level. Each of the agreements is 
crafted to address a specific set of issues that, if not addressed, 
threaten the sustainability of the fisheries resources in question. 
Each of them has strong support from a broad and diverse range of U.S. 
stakeholders from both the fishing industry and conservation community.

    Senator Rubio [presiding]. Thank you.
    Before we move to Mr. Smith's testimony, just briefly to 
give you an insight to what is happening, there are all these 
important votes going on on the floor, so we are doing a relay 
race here. So Senator Markey has gone to cast his vote. When he 
returns, we will continue with the hearing. At some point it is 
possible we may have to have a short recess if we do not have 
enough members, because these are very important votes.
    But, Mr. Smith, thank you for joining us.

 STATEMENT OF RUSSELL F. SMITH III, DEPUTY ASSISTANT SECRETARY 
 FOR INTERNATIONAL FISHERIES, NATIONAL OCEANIC AND ATMOSPHERIC 
  ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE, WASHINGTON, DC

    Mr. Smith. Thank you very much, Ranking Member Rubio, and I 
really appreciate the opportunity to testify here today on 
these important issues. I would ask that my testimony be 
included in the record of this hearing.
    My name is Russell Smith and I am NOAA's Deputy Assistant 
Secretary for International Fisheries. Marine fish and 
fisheries, such as salmon in the Pacific Northwest, red snapper 
in the gulf, and cod in New England have long been vital to the 
economic strength and cultural identity of coastal communities 
in the United States. To ensure the long-term benefits of these 
resources, NOAA relies on clear, science-based rules, fair, 
effective, and consistent enforcement, and a shared commitment 
to sustainable management. The application of these standards 
has resulted in a Federal fishery management system that has 
made significant progress in ending overfishing and rebuilding 
our Nation's fisheries.
    As a global leader in sustainably managing fisheries, the 
United States works to translate our domestic fishery 
management practices into international practices. The United 
States engages in international fisheries fora with the goal of 
ensuring that globally all fish stocks are sustainably managed.
    One of the greatest challenges is combating illegal, 
unreported, and unregulated fishing. IUU is a global problem 
that threatens ocean ecosystems and the sustainable management 
of fisheries, as well as food security in coastal communities 
around the world. The economic losses resulting from IUU 
fishing are enormous. Experts estimate that they range from $10 
to $23.5 billion per year.
    U.S. accession to the four agreements that are the subject 
of today's hearing will directly benefit U.S. interests, 
fisheries-related and beyond. For example, the North Pacific 
and South Pacific and NAFO agreements manage fisheries in which 
U.S. vessels fish or areas adjacent to areas in which U.S. 
vessels fish. Some of the stocks managed under these agreements 
are also fished in U.S. waters.
    Accession to these treaties will help level the playing 
field for U.S. fishers by allowing the United States to argue 
for foreign fishing fleets to be subject to the same high 
standards in international waters as our fleets adhere to in 
domestic waters. If our fleet ever wants the ability to fish in 
the areas managed by the new RFMOs, accession will put us in a 
better place to advocate for access to the international 
fishery.
    The treaties also support the U.S. seafood industry and 
consumers by keeping illegal fisheries products out of U.S. and 
global markets, reducing competition with legal and sustainable 
American products.
    These treaties will also support international sustainable 
fisheries management and thereby improve food security 
globally. As the United States imports more than 90 percent of 
its seafood, ensuring the sustainable management of global 
seafood fisheries stocks, including those in the North and 
South Pacific, helps to protect U.S. food security.
    Let me briefly describe these treaties for you. The North 
Pacific and South Pacific Conventions establish commissions 
that are responsible for the long-term conservation and 
management of fisheries resources not covered under preexisting 
international agreements. They are also responsible for the 
protection of marine ecosystems in the convention area from 
fishing activities. Both agreements are based on modern 
principles of fisheries management establishing the use of a 
science-based and precautionary approach for developing 
conservation and management measures and a strong monitoring, 
control, and surveillance regime. In addition, the commission 
created under both agreements will establish mechanisms for 
monitoring compliance and responding to noncompliance.
    NAFO is charged with coordinating scientific study and 
cooperative management of the fisheries resources of the 
Northwest Atlantic Ocean except for salmon, tuna, and sedentary 
species of the continental shelf. The updates to the NAFO 
convention put the organization in a better position to develop 
and implement measures based on sound advice, to use an 
ecosystem approach to fisheries management, and thereby to 
sustainably manage the stocks for which it is responsible. 
Additionally, the new convention strengthens NAFO's ability to 
combat IUU fishing.
    Finally, the Port State Measures Agreement is the first 
binding global instrument focused specifically on combating IUU 
fishing. The agreement will help to keep IUU fish products from 
entering the stream of commerce by requiring port states to 
exercise better control over their ports. Port states will be 
required, with some limited exceptions, to keep IUU fishing 
vessels out of their ports and to deny them port services and 
to inspect a percentage of the fishing vessels that enter their 
ports.
    With some of the largest and most successful fisheries in 
the world, the United States has become a global leader in the 
sustainable management of fisheries. These agreements allow us 
to advance those efforts.
    Thank you again for the opportunity to testify before you 
today. I would be happy to take any questions that you may 
have.
    [The prepared statement of Mr. Smith follows:]

               Prepared Statement of Russell F. Smith III

                              introduction
    Good morning Mr. Chairman and members of the committee. I am 
Russell Smith, Deputy Assistant Secretary for International Fisheries, 
National Oceanic and Atmospheric Administration (NOAA), Department of 
Commerce. Thank you very much for the opportunity to come before you 
today to discuss four international fisheries agreements intended to 
improve the conservation and management of specific international 
fisheries and to combat illegal, unreported, and unregulated (IUU) 
fishing.
    Before I address the four treaties, I wish to provide some context 
about why they are important to U.S. national interest. Marine fish and 
fisheries, such as salmon in the Pacific Northwest and cod in New 
England, have been vital to the prosperity and cultural identity of 
coastal communities in the United States. U.S. fisheries play an 
enormous role in the U.S. economy. Commercial fishing supports fishers 
and fishing communities, and provides Americans with a sustainable, 
healthy food source. The seafood industry in the U.S.--harvesters, 
seafood processors and dealers, seafood wholesalers and seafood 
retailers, including imports and multiplier effects--generated $129 
billion in sales impacts and $37 billion in income impacts, and 
supported 1.2 million jobs in 2011.\1\ Recreational fishing also makes 
significant contributions to employment and the economy in the United 
States. Recreational fishing generated an estimated $56 billion in 
sales impacts, $18 billion in income impacts, and supported 364,000 
jobs in 2011.\2\ Subsistence fishing provides an essential food source 
and is culturally significant for indigenous peoples.
    To ensure the long-term benefits of these resources to the American 
people, NOAA relies on clear, science-based rules, fair, effective and 
consistent enforcement, and a shared commitment to sustainable 
management. Much of this work occurs under the Magnuson-Stevens Fishery 
Conservation and Management Act (Magnuson-Stevens Act), which sets 
forth standards for the conservation, management, and sustainable use 
of our Nation's fisheries resources. The application of these standards 
has resulted in a federal fishery management system that has made very 
significant progress in ending overfishing and rebuilding our Nation's 
fisheries.
    The United States is also one of the world's largest importers and 
consumers of seafood. In 2011, seafood imports contributed 176,000 
jobs, $48.4 billion in sales impacts, and $14.8 billion in value added 
impacts.\3\ As such, the United States is in a unique position to 
support sustainable fisheries around the world while providing a level 
playing field for our domestic fishermen. Working in collaboration with 
the Department of State and the U.S. Coast Guard, NOAA engages in 
international fisheries fora, such as Regional Fisheries Management 
Organizations (RFMOs), to ensure that global fish stocks are 
sustainably managed, including by ensuring that management is based on 
the best available science. As the United States is a leader in 
sustainably managing fisheries, often we seek to draw from our 
experience and convince RFMOs to apply, in the waters under their 
jurisdiction, management measures comparable to those applied in U.S. 
waters.
    One of the greatest challenges to our international efforts to 
ensure the sustainable management of global fisheries is combating 
illegal, unreported, or unregulated (IUU) fishing. IUU fishing is a 
global problem that threatens ocean ecosystems and impacts fisheries, 
food security, and coastal communities around the world. Experts 
estimate the global value of economic losses from IUU fishing range 
between $10 and $23.5 billion.\4\ By circumventing conservation and 
management measures, companies and individuals engaging in IUU fishing 
cut corners and lower their operating costs. As a result, their 
illegally caught products provide unfair competition for law-abiding 
fishermen and seafood industries in the marketplace, and can undercut 
the sustainability of international and U.S. fisheries.\5\
    U.S. accession to the four agreements before you today would 
greatly strengthen our ability to sustainably manage fisheries 
resources globally and combat IUU fishing. The agreements are: the 
Convention on the Conservation and Management of High Seas Fisheries 
Resources in the North Pacific Ocean (or North Pacific Convention); the 
Convention on the Conservation and Management of High Seas Fishery 
Resources in the South Pacific Ocean (or South Pacific Convention); the 
Amendment to the Convention on Future Multilateral Cooperation in the 
Northwest Atlantic Fisheries (or NAFO Convention Amendment); and the 
Agreement on Port State Measures to Prevent, Deter and Eliminate 
Illegal, Unreported and Unregulated Fishing (or Port States Agreement).
    These four treaties will directly benefit U.S. interests. The new 
RFMOs in the North and South Pacific and the existing RFMO in the 
Northwest Atlantic (NAFO) will have management authority for target 
stocks and bycatch species that straddle U.S. waters. By joining these 
organizations and strengthening their management regimes, the United 
States can promote the use of our strong fishery management principles 
internationally so that foreign fishing fleets abide by the same 
standards as our industry. In joining the new North and South Pacific 
RFMOs, we are also ensuring future economic opportunities for our 
domestic fishing interests. Although there is currently no U.S. 
industry operating within the North or South Pacific RFMOs, our 
membership will allow for the possibility of future engagement and 
provide the opportunity for the U.S. to influence the management and 
compliance monitoring measures adopted by these organizations.
    The treaties also support the U.S. seafood industry and consumers 
by keeping illegal fisheries product out of U.S. and global markets. 
The North and South Pacific RFMOs and NAFO will implement new and 
strengthen existing management tools to combat IUU fishing within their 
areas. Moreover, the Port States Agreement will help to keep IUU 
fishing products from entering the market, and keep them from competing 
with U.S. caught, sustainably harvested, legal seafood. Denying port 
entry and access to port services, and consequently preventing illegal 
seafood from entering trade, increases the costs associated with IUU 
fishing operations and removes the financial incentives for engaging in 
IUU fishing.
    Lastly, these treaties will support international sustainable 
fisheries management and thereby improve food security globally. 
Seafood is a significant source of protein for nearly 3 billion people 
and is the planet's most highly traded food commodity, contributing to 
the livelihoods of more than 560 million people.\6\ IUU fishing 
threatens food security and socioeconomic stability in many parts of 
the world by reducing the productivity and profitability of legitimate 
fisheries, including artisanal fisheries in coastal areas. By improving 
the management of fisheries through these new or updated RFMOs, coupled 
with the IUU fishing-combating Port States Agreement, the four treaties 
address food security in developing coastal states, in the United 
States and globally; and thereby support the political stability of 
U.S. interests worldwide.
    I now will describe each of the four agreements and the benefits 
they would provide in more detail.
         north pacific and south pacific fisheries conventions
    The United States has worked for many years with other nations to 
improve the management of fisheries at the international level and to 
protect vulnerable marine ecosystems from the impacts of certain 
fishing practices on the high seas. The North Pacific and South Pacific 
Conventions will advance U.S. interests in the effective management of 
high seas fisheries. U.S. participation in the Commissions established 
under the North Pacific and South Pacific Conventions will facilitate 
development of measures adopted for fisheries on the high seas of the 
Pacific Ocean that are compatible with measures adopted by the United 
States with respect to fisheries in adjacent waters under the fisheries 
jurisdiction of the United States. In addition, U.S. participation will 
ensure that future U.S. fishing interests subject to the North Pacific 
and South Pacific Conventions can be factored into allocation 
decisions. Furthermore, as both the South Pacific Convention area and 
the North Pacific Convention areas overlap with that of other Pacific 
RFMOs in which the United States is a party, U.S. participation will 
help to ensure a consistent approach to conservation and management 
among these RFMOs and across the Pacific.
North Pacific Convention
    The North Pacific Convention establishes a new regional fisheries 
management organization, the North Pacific Fisheries Commission (NPFC), 
through which Parties will cooperate to ensure the long-term 
conservation and sustainable use of fisheries resources in the 
Convention Area while protecting the marine ecosystems of the North 
Pacific Ocean in which these resources occur. The North Pacific 
Convention Area is the high seas area (i.e., outside of 200-mile EEZs) 
roughly north of 20-degrees North latitude and south of the Aleutians. 
The specific geographic coordinates of the North Pacific Convention 
Area are delineated in Article 4 of the Convention. Cooperation under 
the North Pacific Convention will address fisheries resources not 
covered under preexisting international fisheries management 
instruments and will help to prevent significant adverse impacts on 
vulnerable marine ecosystems on the high seas that may have impacts on 
fisheries resources in areas subject to U.S. jurisdiction. One of the 
general principles of the North Pacific Convention is that conservation 
and management measures established for straddling fish stocks on the 
high seas and those adopted for areas under national jurisdiction 
should be compatible to ensure conservation and management of these 
fisheries resources in their entirety.
    The North Pacific Convention calls for a science-based and 
precautionary approach to the management of fisheries resources and a 
strong monitoring, control, and surveillance regime. It also will 
establish two committees, a Scientific Committee and a Technical and 
Compliance Committee, to carry out its functions. The North Pacific 
Convention will also allow for the meaningful participation of Taiwan 
as a fishing entity in the NPFC.
    Of particular concern to the NPFC are bottom fisheries over 
seamounts that could have significant adverse impacts on vulnerable 
marine ecosystems. The participants to the negotiations of the North 
Pacific Convention have already agreed to interim measures to protect 
vulnerable marine ecosystems and the sustainable management of high 
seas bottom fisheries in the North Pacific Convention Area. The interim 
measures include requiring assessments prior to any fishing that 
demonstrate that contemplated fishing activities would not have 
significant adverse impacts on vulnerable marine ecosystems and 
sustainability of the fishery resources.
    While there are presently no U.S. vessels fishing whose activities 
would be covered by the North Pacific Convention, there have been in 
the past and may be in the future. The United States is a coastal State 
with fisheries and marine habitats adjacent to the North Pacific 
Convention Area. Those fisheries can be impacted by management measures 
adopted by the North Pacific Commission.
    For example, since 1986, NMFS has prohibited fishing in the U.S. 
EEZ for Pacific armorhead, one of the groundfish species that will be 
managed in the Convention area. Armorhead are overfished as a result of 
past over-exploitation by foreign vessels in international waters 
dating back to the 1970s or earlier. NMFS believes that continued 
exploitation outside our EEZ by foreign fleets has kept the stock in an 
overfished condition. The Hancock Seamounts are the only known 
armorhead habitat within our EEZ. These seamounts lie west of 180 W. 
and north of 28 N., to the northwest of Kure Atoll in the Northwestern 
Hawaiian Islands. The Western Pacific Fishery Management Council and 
NMFS have responded to the overfished condition of armorhead by 
implementing a moratorium on catching armorhead and related seamount 
groundfish. The Council and NMFS recognize that, because less than 5 
percent of the armorhead habitat lies within U.S. jurisdiction, 
rebuilding of the stock must be accomplished through coordinated 
international management. The North Pacific Convention is an important 
vehicle to achieve such coordinated international management.
    The United States also has fleets operating in the North Pacific 
Convention Area that are fishing for tunas, swordfish, and other 
species that are subject to the jurisdiction of other RFMOs which could 
cooperate with the NPFC.
South Pacific Convention
    The South Pacific Convention establishes a new regional fisheries 
management organization, the South Pacific Regional Fisheries 
Management Organization (SPRFMO) through which Parties will cooperate 
in the conservation and sustainable use of the high seas fishery 
resources in the South Pacific Ocean and safeguard the marine 
ecosystems in which these resources occur.
    The South Pacific Convention applies to areas of the South Pacific 
outside national jurisdiction from Australia to South America. Some of 
these areas abut the U.S. EEZ. The initial objectives of the 
negotiators were to develop a management framework to control bottom 
fishing in the western Pacific, primarily by New Zealand, Australia, 
and Taiwan, and the jack mackerel fishery in the eastern Pacific, 
primarily by Chile, Peru, and the European Union. The United States was 
a primary participant in the negotiation of the South Pacific 
Convention. SPRFMO will address fisheries resources not currently under 
management by preexisting agreements, such as new pelagic fisheries or 
expanded fisheries for stocks that straddle one or more exclusive 
economic zones and high seas areas beyond them.
    The South Pacific Convention requires Parties to apply specific 
conservation and management principles and approaches in giving effect 
to the objective of the South Pacific Convention. These principles and 
approaches are enshrined in existing international instruments to which 
the United States is a party, such as the 1995 Fish Stocks Agreement. 
These standards highlight the importance of using the best-available 
science and applying an ecosystem approach to fisheries management. In 
addition, the South Pacific Convention requires that Parties design and 
adopt specific conservation and management measures such as limitations 
on catch or effort, time or area closures, and gear restrictions.
    While there are presently no U.S. vessels fishing in the high seas 
areas of the South Pacific whose activities would be covered by the 
South Pacific Convention, U.S. membership within the Commission would 
allow for the potential participation of future fishing interests and 
enable the U.S. to influence the development of new and amended 
conservation and management measures.
NAFO Convention Amendment
    The Northwest Atlantic Fisheries Organization (NAFO) is charged 
with coordinating scientific study and cooperative management of the 
fisheries resources of the Northwest Atlantic Ocean, excluding salmon, 
tuna, and sedentary species of the Continental Shelf. It was 
established in 1979 by the Convention on Future Multilateral 
Cooperation in the Northwest Atlantic Fisheries (the ``Convention''). 
The United States acceded to the Convention in 1995 and has 
participated actively in NAFO since that time, often assuming 
leadership positions and working to advance key principles of 
sustainable fisheries management.
    In 2005, NAFO launched a reform effort designed to streamline the 
Organization and bring it more in line with the principles of modern 
fisheries management. In 2007, NAFO members adopted the NAFO Convention 
Amendment, which is comprehensive, touching on every element of the 
Convention. It addresses specific U.S. concerns and incorporates key 
international fisheries governance approaches, as found in the 1995 
Fish Stocks Agreement, the 1993 Food and Agriculture Organization of 
the United Nations (FAO) Compliance Agreement, and more recent regional 
fisheries management agreements. The NAFO Convention Amendment vastly 
improves the ability of NAFO and its membership to effectively manage 
the resources under its purview and the ecosystems associated with 
those resources.
    Key elements of the NAFO Convention Amendment include provisions 
that detail NAFO's objectives, including long-term conservation and 
sustainable use of fishery resources and safeguarding of marine 
ecosystems in the convention area. The agreement also outlines general 
principles that include (among many others) promoting optimum use and 
long-term sustainability of fishery resources, adopting management 
measures based on the best scientific advice available, applying the 
precautionary approach when there is scientific uncertainty, taking 
into account the effect of fishing on the marine ecosystem, and 
highlighting the need to preserve biodiversity. This language reflects 
a modernized approach to fisheries management.
    Furthermore, the amendment simplifies the structure of NAFO, which 
will now consist of a Commission, a Scientific Council, and a 
Secretariat. This new structure combines the current General Council 
and Fisheries Commission into a single Commission and reorganizes a 
number of the subbodies. These changes will streamline NAFO 
considerably and result in increased efficiency, more effective 
conservation and management, and reduced costs. The NAFO Convention 
Amendment enables the Commission to take action, including 
nondiscriminatory trade-related measures, against any State or fishing 
entity whose fishing vessels undermine the effectiveness of NAFO 
measures. It also requires the Scientific Council to advise the 
Commission on the impacts of fishing on the marine ecosystem as a whole 
within the Convention Area. Finally, the amendment describes the 
formulation of the Organization's budget and the calculation of the 
contributions due by each Contracting Party. One important result of 
changes to the amendment is that U.S. costs associated with membership 
in NAFO will be considerably reduced.
    The NAFO Convention Amendment also describes Contracting Party 
duties, flag State duties, and port State duties, respectively. These 
provisions are noteworthy because they draw on international fisheries 
governance approaches found in the most important and innovative 
international agreements on fisheries management including the 1995 
Fish Stocks Agreement, the 1993 FAO Compliance Agreement, and more 
recent regional fisheries management agreements. The language primarily 
focuses on effective implementation of measures adopted by NAFO, 
reporting requirements, inspections, and compliance and enforcement 
obligations.
    The NAFO Convention Amendment rewrites the old provisions for 
decisionmaking, implementation, and settlement of disputes. It modifies 
the current general rule for decisionmaking within the Commission from 
a simple majority to consensus and outlines voting rules to be applied, 
namely a two-thirds majority, if consensus is not possible. The process 
for implementation of Commission decisions is also substantially 
modified, and the NAFO Convention Amendment details how and when 
decisions become binding and introduces changes to the existing 
objection procedure. The revised objection procedure is an improvement 
as it, among other things, requires a detailed explanation from the 
objecting Contracting Party and a declaration of the actions (including 
alternative measures) to be taken. Objecting Parties or the Commission 
may also now submit matters to an ad hoc panel and/or invoke the new 
dispute settlement procedures, which provide the choice of a number of 
fora in which to seek resolutions through peaceful means. The process 
also requires Contracting Parties to submit disputes to compulsory 
proceedings pursuant to the 1995 Fish Stocks Agreement.
    The NAFO Convention Amendment addresses cooperation with non-
Contracting Parties and with other organizations. These new provisions 
are designed to ensure that non-Contracting flag State vessels abide by 
NAFO measures when fishing in the NAFO Regulatory Area. They call for 
exchange of information on fishing activities of non-Contracting 
Parties and measures to deter activities (such as IUU fishing) that may 
undermine the measures adopted by the Commission. The new text further 
calls on NAFO to cooperate with the FAO and other relevant 
organizations, including RFMOs. This is particularly important with 
respect to the success of regional and global efforts relating to IUU 
fishing, trade tracking, and even for implementing the ecosystem 
management of fisheries.
    Other amendment provisions are administrative in nature (e.g., 
establishing procedures for review and amendment of the Convention and 
its Annexes). Annex I to the Convention, ``Scientific and Statistical 
Subareas, Divisions and Subdivisions,'' provides the coordinates of the 
scientific and statistical subareas, divisions and subdivisions of the 
Convention Area. Annex II to the Convention, ``Rules Concerning the Ad 
Hoc Panel Procedure pursuant to Article XV,'' is a new Annex describing 
the procedure for the ad hoc panels, one method available to settle 
disputes between Contracting Parties.
Port States Agreement
    The Agreement on Port State Measures to Prevent, Deter, and 
Eliminate Illegal, Unreported and Unregulated Fishing is the first 
binding global instrument focused specifically to combat IUU fishing. 
It recognizes that all fish must pass through a port to get to market 
and that port States can take cost-effective measures to combat IUU 
fishing. IUU fishing deprives law-abiding fishermen and coastal 
communities around the world of up to an estimated $23.5 billion of 
seafood and seafood products every year,\7\ and undermines efforts to 
monitor and sustainably manage fisheries. It also threatens the food 
security in some of the poorest countries in the world as well as in 
the United States and interferes with the livelihood of legitimate 
fishers around the world. Seafood caught through IUU fishing enters the 
global marketplace through ports all around the world. Preventing that 
fish from entering the global market requires an international solution 
and the cooperation of countries throughout the world.
    The Port States Agreement is recognized within the international 
community as a landmark in the effort to combat IUU fishing. The United 
States was a primary participant in its negotiation and was one of the 
first countries to sign it. We took a leadership role because we 
recognized how important taking these measures is for nations that want 
to ensure that product entering their ports has been legally harvested 
and is safe for consumers. We have had experience with the 
implementation of most of the substantive measures in the agreement as 
most of these measures are already contained in U.S. law.
    The agreement has already had significant impact on efforts to 
combat IUU fishing, influencing the adoption of similar measures by 
various RFMOs and providing a model for nations, developing nations in 
particular, to follow in establishing or strengthening dockside 
inspection programs. However, the full effect of the Port States 
Agreement as a tool to combat IUU fishing will not be realized until 
its entry into force, which requires ratification by 25 nations or 
regional economic integration organizations. So far, nine have done so. 
Ratification of the Port States Agreement by the United States will 
demonstrate strong leadership in the global battle against IUU fishing 
and will position the United States to encourage ratification by other 
countries.
    The agreement sets forth minimum standards for the conduct of 
dockside inspections and training of inspectors and, most 
significantly, requires parties to restrict port entry and port 
services for foreign vessels known or suspected of having been involved 
in IUU fishing, particularly those on a RFMO IUU fishing vessel list. 
These minimum standards would increase the risks and costs associated 
with IUU fishing activities and help to ensure that IUU fish and fish 
products do not enter into global trade. Senate advice and consent to 
ratification of the Port States Agreement will ultimately benefit U.S. 
fishermen, seafood buyers, and consumers by preventing IUU vessels from 
entering our ports and diluting the market with illegal product.
    The Port States Agreement has four primary sets of obligations that 
Parties are required to apply vis-a-vis foreign flagged fishing vessels 
(including support vessels) seeking entry to a Party's port:

  <bullet> Parties are required to designate ports to which foreign-
        flagged vessels may seek entry, to require that certain 
        information be collected and considered, and to establish a 
        process for granting or denying port entry and/or the use of 
        port services to foreign-flagged fishing vessels;
  <bullet> Parties must maintain the capacity to conduct dockside 
        vessel inspections in the designated ports and adhere to 
        minimum standards for the conduct of inspections and the 
        training of inspectors. A sufficient number of inspections must 
        be conducted to satisfy the objective of the agreement;
  <bullet> Subject to certain limited exceptions, Parties must deny 
        port entry and the use of port services to vessels that have 
        been engaged in IUU fishing, including as indicated by 
        inclusion of the vessel on an RFMO IUU Vessel list. 
        Importantly, the limited exceptions include allowing port entry 
        exclusively for enforcement purposes or in the event of force 
        majeure; and,
  <bullet> Parties are required to share information, including 
        inspection results, with the flag States and, as appropriate, 
        other relevant Parties and entities, as well as to take 
        followup actions as requested by the flag State when evidence 
        of IUU fishing is found during the course of an inspection.

    NOAA would be the lead agency for U.S. implementation of the Port 
States Agreement. Primary responsibility to carry out its obligations, 
particularly those related to vessel inspections, will fall on NOAA's 
National Marine Fisheries Service (NMFS), Office of Law Enforcement, in 
collaboration with the U.S. Coast Guard, which has Captain of the Port 
authority for the United States. Importantly, the minimum standards set 
by the Port States Agreement track closely to what the United States 
already does. Under the Port States Agreement, these best practices 
would become common practice around the world, thereby effectively 
closing the so-called ports of convenience that IUU fishing operators 
use to land their fish and support their activities. As a global leader 
in sustainable fishing practices, and the third-largest importer of 
seafood in the world, the United States has a responsibility to ensure 
the fish we import is caught legally. The United States also has a 
responsibility to protect our domestic fishermen from unfair 
competition and ensure consumer confidence in the seafood supply by 
keeping illegal product out of the market. The Port State Measures 
Agreement marks a significant step forward on both of these counts.
    The United States, with our strong legal frameworks, experience in 
effective port management and robust fisheries law enforcement, has 
been assisting developing nations in their preparations for 
implementation of the agreement. NOAA has most recently assisted 
Indonesia in its development of training curriculum for fisheries 
inspectors who will carry out inspections under the agreement. 
Additionally, the United States has strongly promoted the adoption of 
measures in RFMOs that strengthen port related measures, in accordance 
with the agreement. These efforts promote the success of the agreement 
and thereby reduce the amount of IUU product entering our domestic 
markets.
                               conclusion
    Mr. Chairman and Members of the Committee, the Department of State, 
the Department of Commerce, the U.S. Coast Guard, and U.S. stakeholders 
strongly support these four international fisheries agreements. All of 
these agreements will contribute to the sustainable management of 
internationally shared fisheries resources and directly impact U.S. 
interests. The four agreements promote U.S. interests by (1) leveling 
the playing field for U.S. fishing industry by bringing foreign fishers 
up to the standards applied to U.S. fishers, (2) keeping illegal 
product from entering the U.S. and global markets and thereby 
supporting legal, sustainably harvested U.S. seafood products, and (3) 
promoting sustainable fisheries internationally which supports food 
security and political stability globally. U.S. accession will allow us 
to be at the table to further those interests.

----------------
End Notes

    \1\ See Fisheries Economics of the U.S. 2011. NMFS Office of 
Science & Technology, available at:http://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2011.
    \2\ Sabrina J. Lovell, Scott Steinback, and James Hilger. 2013. The 
Economic Contribution of Marine Angler Expenditures in the United 
States, 2011. U.S. Dep. Commerce, NOAA Tech. Memo. NMFS-F/SPO-134, 188 
p.
    \3\ See Fisheries Economics of the U.S. 2011, at 7.
    \4\ Agnew DJ, J. Pearce, G. Pramod, T. Peatman, R. Watson, et al. 
(2009). Estimating the worldwide extent of illegal fishing. PLoS ONE, 
4(2): e4570.
    \5\ United Nations Office of Drugs and Crime. ``Issue Paper--
Transnational Organized Crime in the Fishing Industry'' http://
www.unodc.org/documents/human-trafficking/Issue_Paper_-
_TOC_in_the_Fishing_Industry.pdf. 2011.
    \6\ United Nations Interagency Framework Team for Preventive 
Action. ``Renewable Resources and Confict.'' http://www.un.org/en/
events/environmentconflictday/pdf/GN_Renewable_ 
Consultation.pdf. 2012.
    \7\ Agnew DJ, J. Pearce, G. Pramod, T. Peatman, R. Watson, et al. 
(2009). Estimating the worldwide extent of illegal fishing. PLoS ONE, 
4(2): e4570.

    Senator Rubio. Thank you, Mr. Smith. I would just note, 
without objection, that your full comments will be included in 
the committee's record.
    Admiral, I hate to do this to you. We are going to have to 
take a brief, 10-minute recess while I go vote, because the 
majority leader is pushing these through pretty quickly. I 
anticipate that the chairman will be back here in a moment so 
we can continue. So if you would just give us about 10 minutes, 
I think, and we will be back.
    The committee stands in recess for 10 minutes.

[Recess from 3:05 p.m. to 3:10 p.m.]

    Senator Markey [presiding]. The committee will come to 
order, and we are now joined by Senator Murkowski, who is the 
cochair of the Oceans Caucus. Her cochair, Sheldon Whitehouse, 
has already testified. We welcome you, Senator.
    Whenever you are comfortable, please begin.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman, Ranking Member 
Rubio, and to other members of the committee who are not here 
today, but who hopefully have an opportunity to view the 
testimony, thank you for the opportunity to speak today on some 
very important treaties facing the U.S. Senate and before your 
committee here at Foreign Relations.
    Taking the time to address these fisheries treaties is 
critically important, particularly the effects of IUU fishing 
and activities on U.S. interests. Senator Whitehouse and I have 
been working as cochairs of the Senate Oceans Caucus to be 
strong advocates for our Nation's oceans and fisheries. I think 
it is critically important that as we look to protect the 
strength of our fisheries, the strength of our oceans, that we 
understand that our oceans know no boundaries, in the sense 
that we know where the borders are of our States, we know where 
the borders are of our countries, but we need to ensure that as 
we are working with other nations as it relates to our 
fisheries that we have some common framework.
    I am here today because the fishing and the seafood 
industries are vital economic drivers in my State. Alaska's 
fisheries are the most abundant and sustainably managed in the 
Nation and we are quite proud of that. We lead all States in 
terms of both volume and value of commercial fisheries, with 
approximately 1.84 million metric tons, worth $1.3 billion. We 
account for over 52 percent of the Nation's commercial seafood 
harvest. Alaska's commercial, sport, and subsistence fisheries 
are at the heart of coastal Alaska. They are the economic 
livelihood for more than 80,000 Alaskans who are either 
directly or indirectly employed in the industry.
    The witnesses that you have today will give great overview 
of these important issues. They can address the international 
and the domestic implications of the treaties that you have 
before you. You do have an individual on the third panel, Mark 
Gleason, who is with the Alaska Bering Sea Crabbers. I 
appreciate the fact that he has traveled to D.C. today to 
testify on behalf of the organization.
    You might not have heard of the Bering Sea Crabbers, but 
most people are at least familiar with ``The Deadliest Catch.'' 
All you need to do is think of ``Deadliest Catch'' and it takes 
you into the activities of the Bering Sea.
    Some of you may not know that I have a little bit of an 
interest in not only the crab fishery, but safety at sea. My 
son just finished up a season in the Bering Sea crabbing. They 
left last night through Unimak Pass to travel across the Gulf 
of Alaska. He is headed back home and he is probably going to 
have some Bering Sea crab stories that I am not sure that his 
mother is really ready to hear yet, but I am bracing myself.
    But as I think about the experience that my son has had as 
a Bering Sea crab fishermen, given what we have put in place 
with safeties and precautions and protocols, it is a much 
better world now for our crabbers and our fishermen than it was 
just a few years ago.
    It is important, however, that Alaska and U.S. fishermen 
have a level playing field when it comes to our harvesting 
opportunities. Russian IUU crab has been a serious problem for 
Alaska since at least 1990. As is true for most commodity 
markets, crab prices of course are driven by supply. IUU crab 
lowers the market price to fishermen and processors and tax 
revenues to our State.
    The estimated impacts of IUU crab to harvesters since the 
year 2000 is about $560 million, with an additional cost to 
crab processing ports of over a million dollars in lost landing 
revenues. These are real dollars that we are talking about. 
This is real impact to a State.
    As recently as 2011, NOAA law enforcement seized 112 metric 
tons of illegally harvested Russian king crab that was being 
shipped to United States markets through the port of Seattle. 
So I am pleased to be followed by representatives from the 
Coast Guard, NOAA, and the State Department who will speak in 
more detail on their efforts to prevent IUU seafood from 
entering the United States. These three agencies, with 
assistance from the U.S. Customs and Border Patrol, and the 
FDA, successfully prosecuted the case and helped shut down one 
avenue for illegal imports. I think this is a positive example 
and I believe the treaties before you will enhance the 
effectiveness of U.S. authority to deter IUU activities.
    Two of the treaties that you have, the Port State Measures 
Agreement and the Convention on the Conservation and Management 
of High Seas Fisheries Resources in the North Pacific, are very 
important to my State's fishermen. The first sets global 
standards to combat IUU fishing. It will help to protect U.S. 
fishermen by keeping foreign illegally caught fish from 
entering the global stream of commerce. Specifically, it 
establishes global port restrictions designed to catch vessels 
engaged in illegal fishing activities when they attempt to 
offload the fish in port.
    The second will establish a new regional fishery management 
organization for fisheries resources located near the North 
Pacific and not currently addressed through preexisting 
international fisheries management bodies.
    I would like to comment, Mr. Chairman, on the fact that IUU 
vessels can also be some pretty bad actors beyond the world of 
fishing. You are going to be hearing testimony from the third 
panel on the role that IUU vessels are playing in the context 
of human trafficking and drug smuggling. While these particular 
fishing treaties are not focused on these issues specifically, 
it is my understanding that they will provide additional tools 
that can help U.S. law enforcement officials crack down on them 
as well.
    Again, I truly appreciate, and I know that my colleague 
Senator Whitehouse does as well, the efforts of this committee 
to look into these issues, to discuss them thoroughly, to 
advance these treaties through the Senate, and help to level 
the playing field for U.S. fisheries.
    With that, Mr. Chairman, I am happy to take any questions 
that you might briefly have. I appreciate the allowance and 
indulgence of your time in allowing me to pop in as we juggle 
votes. Thank you.
    [The prepared statement of Senator Murkowski follows:]

              Prepared Statement of Senator Lisa Murkowski

Mr. Chairman, Ranking Member Rubio, other members of the committee who 
were not able to make it here today, but who hopefully will have an 
opportunity to review this testimony, thank you for this opportunity to 
speak today on some very important treaties in front of the U.S. Senate 
and before the Foreign Relations Committee. Taking the time to address 
these fisheries treaties is critically important, particularly with 
regard to the effects of IUU fishing activities on U.S. interests. 
Senator Whitehouse and I have been working as cochairs of the Senate 
Oceans Caucus to be strong advocates for our Nation's oceans and 
fisheries. I think it is critically important that as we look to 
protect the strength of our fisheries, the strength of our oceans, that 
we understand that our oceans know no boundaries. I mean this in the 
sense that we know where the borders are for our states, where the 
borders are for countries, but we need to ensure that as we work with 
other nations to protect our fisheries outside our national 
jurisdiction, that we work within the common framework of international 
agreements.
    I am here because the fishing and seafood industries are vital 
economic drivers in my home State. Alaska's fisheries are the most 
abundant and sustainably managed in the Nation, and we are quite proud 
of that fact. Alaska leads all States in terms of both volume and value 
of commercial fisheries with approximately 1.84 million metric tons 
worth $1.3 billion--accounting for over 52 percent of the Nation's 
commercial seafood harvests. Alaska's commercial, sport, and 
subsistence fisheries are at the heart of coastal Alaska and they are 
the source of economic livelihood for more than 80,000 Alaskans who are 
directly or indirectly employed in the industry.
    The witnesses you have assembled for today's hearing will provide 
an excellent overview of this important issue, and can address the 
international and domestic implications of the treaties before you. You 
do have an individual on the third panel, Mark Gleason, who is with the 
Alaska Bering Sea Crabbers, and I appreciate the fact that he has 
traveled to D.C. to testify on behalf of his organization. Now you may 
not have heard of the Alaska Bering Sea Crabbers, but most people are 
at least familiar with the Deadliest Catch. All you need to do is think 
of Deadliest Catch and it takes you into the activities out in the 
Bering Sea. Some of you may not know that I have a little bit of an 
interest not only in the crab fishery, but in the safety of fishing 
vessels out in the Bering Sea. My son just finished up a season 
crabbing in the Bering Sea, and they left last night through Unimak 
Pass to travel across the Gulf of Alaska. He is headed back home and he 
probably is going to have some Bering Sea crab stories that I am not 
sure his mother is really ready to hear yet, but I am bracing myself. 
As I think about the experience my son has had as a Bering Sea crab 
fisherman, given what we in the U.S. have put in place for safety, it 
is a much better situation out there for our crabbers and our 
fishermen. The same is true in terms of the fisheries management 
regimes we have in place in the U.S., and it is important that Alaskan 
and U.S. fishermen have a level playing field as they compete in the 
global seafood market.
    Russian IUU crab has been a serious problem for Alaska since at 
least 1990. As is true for most commodity markets, crab prices are 
driven by supply. IUU crab lowers the market price to fishermen and 
processors, and tax revenues to the State of Alaska. The estimated 
impacts of IUU crab to harvesters since 2000 is about $560 million, 
with an additional cost to crab processing ports of over $11 million in 
lost landing tax revenues. These are real dollars we are talking about, 
this has a real impact on my State.
    As recently as 2011, NOAA law enforcement seized 112 metric tons of 
illegally harvested Russian king crab that was being shipped to U.S. 
markets through the Port of Seattle. I am pleased to be followed by 
representatives from the U.S. Coast Guard, NOAA, and the State 
Department who will speak in more detail on their efforts to prevent 
IUU seafood from entering the U.S. These three agencies, with 
assistance from U.S Customs and Border Patrol and the FDA, successfully 
prosecuted this case and helped shut down one avenue for illegal 
imports. This is one positive example, and I believe the treaties 
before you will enhance the effectiveness of U.S. authority to deter 
IUU activities.
    Two of the treaties you have before you today, the Port State 
Measures Agreement and the Convention on the Conservation and 
Management of High Seas Fisheries Resources in the North Pacific Ocean, 
are of particular interest to my State's fishermen. The first will set 
global standards to combat IUU fishing. We have high standards in the 
U.S., and this treaty will help to protect U.S. fishermen by keeping 
foreign illegally caught fish from entering the global stream of 
commerce. Specifically, it will establish global port restrictions 
designed to catch vessels engaged in illegal fishing activities when 
they attempt to offload fish in port.
    The second will establish a new Regional Fishery Management 
Organization (RFMO), the North Pacific Fisheries Commission, for 
fisheries resources located near the North Pacific Ocean, and not 
currently addressed through preexisting international fisheries 
management bodies. This region is adjacent to Alaska, and the west 
coast, and it is important to ensure that there is a fisheries 
management regime in place to deter IUU fishing activities.
    Before concluding, I would like to comment on the fact that IUU 
vessels also can be pretty bad actors beyond the world of fishing. You 
will be hearing testimony from the third panel on the role that IUU 
vessels are playing in the context of human trafficking and drug 
smuggling. While these fisheries treaties are not focused on these 
issues specifically, it is my understanding that they will provide 
additional tools that can help U.S. law enforcement officials crack 
down on them as well.
    Again, I truly appreciate, and I know that my colleague, Senator 
Whitehouse, does as well, the efforts of this committee to look into 
these issues, to discuss them thoroughly, and to advance these treaties 
to level the playing field for U.S. fishermen.
    I encourage the committee to consider these treaties favorably, and 
to move them forward for consideration by the full Senate.

    Senator Markey. We appreciate your leadership, Senator 
Murkowski, on this set of critical issues, and we intend on 
acting, and your leadership has played a big role in bringing 
us to this space. So we thank you so much for your service.
    We would ask the second panel to come back up and we will 
move to Admiral Kenney, although your nameplate says 
``Kennedy.'' In Massachusetts that is not a bad thing, not a 
bad thing. Most people would not change their name from Kennedy 
to Kenney in Massachusetts, the way we just did for you.

 STATEMENT OF REAR ADMIRAL FREDERICK J. KENNEY, JUDGE ADVOCATE 
  GENERAL AND CHIEF COUNSEL, U.S. COAST GUARD, WASHINGTON, DC

    Admiral Kenney. Well, thank you, Senator. I am from 
Massachusetts and----
    Senator Markey. Really? What high school?
    Admiral Kenney [continuing]. What is that?
    Senator Markey. What high school?
    Admiral Kenney. I went to Rossview Latin School.
    Senator Markey. Really? A very well educated witness before 
us. [Laughter.]
    So whenever you are ready, Admiral, please begin.
    Admiral Kenney. But it is an honor to be confused with that 
other illustrious Massachusetts family.
    Well, good afternoon, Chairman Markey. It is a pleasure to 
appear before you to discuss how the international fisheries 
treaties before you today will improve the Coast Guard's 
ability to deter illegal, unreported, and unregulated fishing 
both within areas of U.S. jurisdiction and on the high seas. I 
ask that my written statement be submitted for the record.
    Senator Markey. Without objection, so ordered.
    Admiral Kenney. Before I begin, on behalf of the Commandant 
I would like to thank the members of the committee for their 
support in passing the Consolidated Appropriations Act of 2014. 
This act will help relieve the erosive effects of sequestration 
on the Coast Guard. It will restore frontline operations, such 
as fisheries enforcement, and badly needed training hours. It 
will ease many of the personnel management restrictions we have 
faced over the past year.
    Safeguarding living marine resources is a longstanding 
Coast Guard mission and it remains a vital U.S. economic 
interest today. The Coast Guard embraces its role as the 
principal Federal at-sea enforcement agency for the protection 
of living marine resources within the U.S. EEZ and on the high 
seas. The Coast Guard supports the State Department and NOAA in 
their efforts to combat IUU fishing. Actors engaged in this 
illicit activity often exploit the gaps between governance 
structures and operate in areas where there is little or no 
effective enforcement presence.
    The four international treaties under consideration by the 
committee will significantly shrink those areas most vulnerable 
to IUU fishing and will enhance the Coast Guard's ability to 
provide at-sea enforcement for the conservation of precious 
living marine resources.
    Since 2008, the Coast Guard has conducted over 100 high 
seas boardings and issued violations to over 20 vessels. These 
enforcement efforts enabled recent seizures of stateless 
vessels, such as the fishing vessel DA CHENG and its illegally 
taken catch from high seas driftnet fishing. Notably, the Coast 
Guard cooperated closely with Chinese officials to turn over 
the vessel, crew, and catch for Chinese enforcement efforts, 
which resulted in forfeiture of the catch, destruction of the 
IUU vessel, and a significant fine for the master.
    The Northwest Atlantic Fisheries Organization Convention 
Amendment will help to align treaty activities with 
contemporary enforcement practices within the convention area. 
Both the North Pacific and South Pacific conventions will 
establish a modern governance mechanism to provide a stronger 
at-sea enforcement regime on the high seas of the Pacific 
Ocean. The Port State Measures Agreement will address illegal 
fishing activity by establishing economic disincentives for 
those who violate the law.
    Together, these four treaties will facilitate joint efforts 
between the Coast Guard, NOAA, the State Department, and our 
international partners to preserve and protect valuable living 
marine resources that are critical to the United States and 
world economies.
    These treaties and other international instruments that 
address fisheries governance also have a secondary benefit of 
facilitating efforts to identify and counter other maritime 
security threats. Groups or individuals involved in illegal 
fishing may also be engaged in other crimes. In carrying out 
the provision of these treaties, the Coast Guard can promote 
maritime governments and increase maritime domain awareness on 
the high seas, thus enabling the service to respond to a range 
of transnational threats.
    Enforcement of both the outer reaches of the U.S. EEZ and 
international fisheries management schemes is largely a mission 
conducted by Coast Guard offshore assets. The Coast Guard 
remains steadfast in its commitment to recapitalizing its 
offshore fleet to ensure it is capable of addressing these 
threats, such as illegal fishing on the high seas and in our 
sovereign waters.
    The capabilities of new assets, such as the National 
Security Cutter, one of which is on patrol in the Pacific as I 
speak, and the Offshore Patrol Cutter, which is in the 
preliminary and contract design phase, will maintain our 
ability to conduct Coast Guard missions in the distant reaches 
of the U.S. EEZ and on the high seas. These replacement 
platforms for our aging offshore fleet, some of which are 
nearly 50 years old, will make the Coast Guard better able to 
close those awareness and presence gaps that allow IUU fishing 
to occur undetected.
    In conclusion, the Coast Guard strongly supports these four 
international fisheries treaties. We will continue to work 
closely with the State Department, NOAA, and our international 
partners to achieve national and international objectives to 
address IUU fishing. Such cooperation is a critical step in 
sustaining marine ecosystems worldwide and to address threats 
that impact the U.S. economy and global food security.
    Thank you for the opportunity to testify before you today. 
I would be happy to answer any questions you may have.
    [The prepared statement of Admiral Kenney follows:]

         Prepared Statement of Rear Admiral Frederick J. Kenney

    Good afternoon, Chairman Markey, Ranking Member Rubio, and 
distinguished members of the committee. It is a pleasure to appear 
before you today in support of four international fisheries agreements 
that will improve the Coast Guard's ability to deter, prevent, and 
enforce rules against Illegal, Unregulated, and Unreported (IUU) 
fishing both within areas of U.S. jurisdiction and on the high seas.
    Safeguarding living marine resources is a longstanding Coast Guard 
mission and it remains a vital U.S. economic interest today. Beginning 
with 19th century protection of the Bering Sea fur seal herds and 
continuing through the post-World War II expansion in the size and 
efficiency of global fishing fleets, the Coast Guard has embraced its 
role as the principal, federal, on-scene law enforcement agency for the 
protection of U.S. living marine resources. Today, the Coast Guard 
maintains a law enforcement presence within the U.S. Exclusive Economic 
Zone (EEZ), which is the largest in the world.
    IUU fishing activity is global in reach, and it adversely affects 
marine ecosystems by distorting competition and jeopardizing the 
economic survival of coastal communities whose livelihoods depend upon 
local fisheries. The Coast Guard supports the State Department and the 
National Oceanic and Atmospheric Administration (NOAA) in their efforts 
to combat IUU. Actors engaged in IUU fishing often exploit the gaps 
between governance structures and operate in areas where there is 
little or no effective enforcement presence. These four international 
fisheries agreements will significantly shrink those gaps utilized by 
IUU fishing and will improve the United States deterrence efforts, thus 
promoting the optimal management and protection of vital living marine 
resources and their environments.
    Coast Guard efforts to deter and combat IUU fishing span both 
domestic and internationalfisheries, and they bridge the Service's 
maritime security and maritime stewardship goals.
    These goals, outlined in the ``U.S. Coast Guard Strategy for 
Maritime Safety, Security, and Stewardship,'' are driven by national 
policy including ``Presidential Decision Directive 36: Protecting the 
Ocean Environment,'' laws such as the Magnuson-Stevens Fishery 
Conservation and Management Act, and international ocean governance 
structures, such as U.S. membership within international Regional 
Fishery Management Organizations (RFMOs). Each of the four fisheries 
agreements being considered by the Senate will enhance the Coast 
Guard's ability to provide at-sea enforcement for the conservation and 
management of living marine resources and their environments.
    Effective enforcement requires a clear understanding of the 
Northwest Atlantic Fisheries Organization (NAFO) Convention's goals and 
objectives. The NAFO Convention Amendment accomplishes this through 
modernization of the Convention text that has been in force since 1979. 
The changes will help align Coast Guard enforcement with contemporary 
practices within the Convention area.
    The North and South Pacific Conventions will establish a modern 
governance mechanism that will enable a stronger at-sea enforcement 
regime on the high seas of the Pacific and facilitate more effective 
Coast Guard enforcement efforts in the region. To further achieve this 
goal, the Coast Guard will continue to work closely with the State 
Department and NOAA to ensure the conventions include a high-seas 
boarding and inspection regime in line with Articles 21 and 22 of the 
1995 U.N. Fish Stock Agreement.
    The Port State Measures Agreement is another tool to combat IUU 
fishing by addressing the problem through economic disincentives. 
Without access to ports of convenience, vessels engaged in IUU fishing 
will be unable to sell their product or receive logistical support for 
operations. Forcing these vessels into ports further away from commerce 
centers and fishing grounds will increase their operating costs and 
diminish economic gains for illegally caught fish or fish product. 
Limiting the ports available to these vessels would also simplify 
enforcement by targeting investigations of illicit activity in ports 
known to support IUU fishing.
    Regional Fishery Management Organizations (RFMOs) have proven to be 
highly effective in managing fisheries resources beyond areas of 
national jurisdiction. For example, the Western and Central Pacific 
Fisheries Commission (WCPFC), one of the first in the world to employ a 
fully developed boarding and inspection protocol for high seas 
enforcement based on the U.N. Fish Stocks Agreement, has produced a 
level of governance and cooperation for long-term resource management 
that was previously not feasible. The Coast Guard is proud to have been 
involved in its development and negotiation, and as a leader in its 
enforcement. Under the WCPFC since 2008, the Coast Guard has conducted 
over 100 high seas boardings and inspections, issuing violations to 
over 20 vessels. Likewise, Coast Guard cutter patrols in support of 
these enforcement efforts have also enabled recent seizures of 
stateless vessels such as the fishing vessel DA CHENG and its illegally 
taken catch resulting from high-seas drift-net fishing. Notably, the 
Coast Guard cooperated closely with Chinese officials to turn over the 
vessel, crew, and catch for Chinese enforcement efforts. The Coast 
Guard looks forward to continuing to provide leadership in the global 
fight against IUU fishing in these new RFMOs.
    Enforcement at the outer reaches of the U.S. EEZ and within high-
sea areas managed by RFMOs is a mission largely conducted by Coast 
Guard off-shore assets. Cutter transit to most of the eight 
noncontiguous U.S. EEZs in the Western and Central Pacific takes 
several days (and more than a week in some cases) from the nearest 
Coast Guard facility. The Coast Guard's offshore recapitalization 
program ensures that these critical missions will have the organic 
capabilities necessary to meet the extreme demands of time, distance, 
and weather these operations entail.
    As a secondary benefit, carrying out the provisions of these 
Conventions enables the Coast Guard to increase Maritime Domain 
Awareness on the high seas and more effectively respond to a range of 
transnational threats.
    In conclusion, the Coast Guard strongly supports these four 
international fisheries agreements and will continue to work closely 
with the State Department, NOAA, and our international partners to 
achieve national and international objectives for managing sustainable 
fisheries worldwide and to address IUU fishing. The world's oceans are 
truly a global commons, requiring a global approach toward their 
conservation and management. In the face of an increasing need for food 
security and the increasing scarcity of marine resources, the U.S. 
Coast Guard stands ready to confront IUU fishing to preserve the long-
term viability of migratory fish stocks that affect U.S. fisheries.
    Thank you for the opportunity to testify before you today. I would 
be happy to answer any questions you may have.

    Senator Markey. Thank you, Admiral, very much. Again, we 
thank all of the witnesses.
    Another rollcall has gone off on the Senate floor, so we 
will have to once again stand in a brief recess.

[Recess from 3:23 p.m. to 3:43 p.m.]

    Senator Markey. The committee will reconvene and the Chair 
will recognize himself for a round of questions.
    Mr. Smith, the United States is already a member of a 
number of regional fisheries management organizations. Can you 
provide examples of how membership in those organizations has 
benefited U.S. fisheries?
    Mr. Smith. Thank you, Senator Markey. You are correct, we 
are a member of a number of regional fisheries management 
organizations and we have seen that our work within those 
organizations has directly benefited our fisheries, including 
for example the swordfish fishery in the North Atlantic, a 
fishery that was in great trouble not too long ago. It was 
overfished and subject to overfishing. The stock had crashed. 
The United States had taken some steps to better manage the 
fishery, to close some areas, to do some things to help the 
fishery recover.
    But our taking those actions alone would not be sufficient 
because other countries were fishing on the same stocks. We 
were able to go to ICAT, the International Convention for the 
Conservation of Atlantic Tuna, and we were able to work with 
them to develop management measures that have worked, have 
resulted in the application of quotas that are science-based 
and precautionary, the application of other management measures 
that have led to the stock now having recovered, being managed 
in a fully sustainable fashion, and allowing our fleet to rely 
on it as an important source of fish for our markets and for 
our food security.
    Senator Markey. Thank you.
    Admiral Kenney, the Coast Guard is already taking steps to 
combat illegal fishing in both the United States EEZ and on the 
high seas. For example, in seizing the fishing vessel DA CHENG 
the Coast Guard found 30 metric tons of albacore tuna and 6 
metric tons of shark fins and bodies. What role do you see 
these treaties playing in enhancing your ability to do your 
work?
    Admiral Kenney. Thank you for that question, Mr. Chairman. 
These treaties will enhance the Coast Guard's ability to detect 
and enforce IUU fishing laws, regulations, and treaties. Under 
the NAFO amendments, the Coast Guard will be able to continue 
conducting joint patrols with the Canadian Department of 
Fisheries and Oceans, as we do. For example, in 2012 we 
conducted the very successful Operation Nanook with the 
Canadians, which did result in some boardings, although no 
violations were found.
    The Port State Measures Agreement will enable us to work 
closely with NOAA to prevent IUU fishing vessels from entering 
U.S. ports. The Coast Guard can add to that effort 
significantly through our Advanced Notice of Arrival System and 
allow NOAA to take action as vessels enter port.
    With respect to the North Pacific and South Pacific 
treaties, allowing the Coast Guard to have presence and domain 
awareness in these areas will also allow us to take effective 
enforcement action. A good example of that type of cooperative 
effort is the Oceana Maritime Security Initiative, which is an 
initiative that is led by the U.S. Pacific Command and has 
allowed Coast Guard boarding teams to ride along U.S. naval 
vessels to conduct fisheries boardings in conjunction with 
Pacific Island nations to help them preserve their fish stocks.
    Senator Markey. Thank you.
    Ambassador Balton, developing nations are impacted by 
illegal fishing in a number of ways. Somalia, for example, 
loses $300 million a year because of illegal fishing. In 
addition to direct economic impacts, many developing nations 
depend on fisheries products for subsistence purposes. How will 
these agreements help to address the impact of illegal fishing 
and environmental degradation on developing nations?
    Ambassador Balton. Thank you, Mr. Chairman. You are exactly 
right, developing countries bear the brunt of the problem with 
respect to IUU fishing. I would note that for the Port State 
Measures Agreement a number of them have already ratified, 
recognizing that that instrument will help them. I will mention 
now: Angola, Benin, Brazil, Ghana, Indonesia, Kenya, 
Mozambique, Peru, Samoa, Sierra Leone, among others.
    The Port State Measures Agreement is a great example of a 
cooperative effort to crack down on IUU fishing. It is cost 
effective. It would also allow us and other developed countries 
and multilateral donors to provide assistance to developing 
countries to help them implement relatively inexpensive 
measures in port to prevent illegally harvested fish from being 
offloaded there.
    The other agreements, too, by cracking down on IUU fishing 
and having science-based management should allow for 
sustainability of fisheries, also to the betterment of the 
economy of developing countries.
    Senator Markey. Thank you.
    We thank each of the witnesses for your expert testimony. 
It is going to go a long way toward our ability to be able to 
move this treaty through the committee and out onto the Senate 
floor. We thank you for all of your excellent work.
    Now I would ask the second panel to please come up and sit 
in front of your names. Then we will begin the testimony.

[Pause.]

    Senator Markey. Our final panel will illustrate some of the 
real world consequences of illegal fishing. I will briefly 
introduce our witnesses and then we can hear their testimony.
    Captain Ray Kane is the outreach coordinator for the Cape 
Cod Commercial Fishermen's Alliance. He is the owner and 
operator of F/V FRENZY and has been a Cape Cod fishermen for 
nearly 40 years.
    Mark Gleason is the executive director of the Alaska Bering 
Sea Crabbers, an association of crab fishermen, primarily based 
out of Alaska, Washington, and Oregon.
    Ambassador Mark Lagon is global politics and security chair 
at the Master of Science in Foreign Service Program at 
Georgetown University and adjunct senior fellow for Human 
Rights at the Council on Foreign Relations. He was an 
Ambassador at Large and directed the U.S. Department of State 
Office to Monitor and Combat Trafficking in Persons from 2007 
to 2009, and he is, most importantly, a former member of the 
staff of this committee, and I am told also a native of 
Massachusetts. So we are keeping the panels balanced in that 
sense.
    So we will begin with you, Mr. Kane. Whenever you are 
ready, please begin.

   STATEMENT OF RAYMOND KANE, OUTREACH COORDINATOR, CAPE COD 
               FISHERMEN'S ALLIANCE, CHATHAM, MA

    Mr. Kane. Good afternoon, Chairman Markey. My name is Capt. 
Ray Kane. I appreciate your invitation to testify at this 
important hearing. By way of background, I have been actively 
involved in the Massachusetts commercial fishing industry for 
over 40 years, and I have participated in virtually every New 
England fishery, including tuna, lobster, scallops, and 
groundfish.
    In addition to being the owner and operator of the fishing 
vessel FRENZY, I also serve as the Fishery Advocate for the 
Cape Code Commercial Fishermen's Alliance. Today I am 
testifying on behalf of the hardworking small boat fishermen 
from both Cape Cod and the islands. That comprises the 
alliance.
    As an organization dedicated to sustainable fisheries, we 
support the establishment and strengthening of effective 
regional fisheries management organizations, also known as 
RFMOs. Effective multilateral RFMOs are the only way to manage 
and conserve fisheries on the high seas and as such we firmly 
support their creation in the North and South Pacific Ocean.
    Because our Cape Cod fishermen are not involved in the 
Pacific fisheries, nor do they fish in the NAFO area, my 
testimony today will focus on the Port State Measures Agreement 
aimed at deterring and eliminating illegal, unreported, and 
unregulated fishing, referred to as ``IUU fishing.'' IUU 
fishing is a multibillion dollar industry, and it is growing. 
IUU fishing is fueled by the overall increase in fish prices 
and dwindling global fish stocks. Recent studies suggest that 
foreign illegal fishing is a worldwide business that accounts 
for up to $23.5 billion worth of seafood annually, or 25 
million tons of fish and, even better, Senator Markey, six 
times more fish than the entire U.S. commercial fishing 
industry annual landings.
    The Port State Measures Agreement is built on the promise 
that IUU fishing can be reduced if IUU fish can be prevented 
from entering the global commerce. The most effective way of 
accomplishing this is to make it extremely difficult for IUU 
fish to be offloaded in a port. In this regard, the agreement 
establishes the first global standards to control port access 
from foreign fishing vessels that engage in IUU fishing. These 
standards include mandating parties, port states, to require 
prior notice of a foreign fishing vessel's arrival in their 
port, restricting port entry and services to foreign vessels 
known or suspected of IUU fishing, adopting minimum dockside 
inspection and training standards, and the sharing of 
information about IUU vessels with the appropriate RFMOs.
    But what is most critical about the agreement is that it 
creates an obligation of the signatory nations to apply and 
implement these measures. In other words, these measures are to 
be enforceable, not merely aspirational. The truth is many 
coastal nations are simply not as rigorous in their enforcement 
as is the United States. What is worse is that it is widely 
understood that around the world the illegal sale of additional 
fish quotas and fishing licenses is extremely lucrative, which 
fuels the IUU epidemic.
    So why is this agreement important to the small day boat 
fishermen on Cape Cod, my fellow fishermen from Gloucester, 
Boston, New Bedford, and all the New England coast, and for 
that matter the entire East Coast? The answer is simple. For 
too many years, New England fishermen have sacrificed to 
rebuild highly migratory stocks while foreign fishermen engaged 
in IUU fishing are reaping the benefits of our efforts by 
targeting those very same fish. This is particularly true for 
tuna and swordfish fishermen along the New England coast.
    Mr. Chairman, American fishermen and especially 
Massachusetts fishermen have had enough of IUU fishing. We need 
to level the playing field in order to make sure that we have 
an equal footing in the marketplace and to ensure that our 
conservation efforts and sacrifices are not undone by IUU 
fishing. We believe the Port State Measures Agreement is a good 
place to start and we strongly encourage this committee and the 
entire Senate to approve the agreement as soon as possible.
    Thank you and I would be happy to answer any questions.
    [The prepared statement of Mr. Kane follows:]

                Prepared Statement of Capt. Raymond Kane

    Good afternoon, Senators Markey and Rubio. My name is Captain Ray 
Kane and I appreciate your invitation to testify at this important 
hearing. By way of background, I have been actively involved in the 
Massachusetts commercial fishing industry for over 40 years, and I have 
participated in virtually every fishery including tuna, lobster, 
scallops, and groundfish. In addition to being the owner and operator 
of the F/V Frenzy, I also serve as the fishery advocate for the Cape 
Cod Commercial Fishermen's Alliance (Alliance). Today I am testifying 
on behalf of the hard working, small boat fishermen from Cape Cod and 
the Islands that comprise the Alliance.
    The subject of today's hearing is the consideration of four 
fisheries agreements including an Amendment to the Convention of Future 
Multilateral Cooperation in the Northwest Atlantic (NAFO); the 
Convention on the Conservation and Management of High Seas Fisheries 
Resources in the North Pacific Ocean; the Convention on the 
Conservation and Management of High Seas Fishery Resources in the South 
Pacific Ocean (SPRFMO); and the Agreement on Port State Measures to 
Prevent, Deter, and Eliminate Illegal, Unreported, and Unregulated 
Fishing (PSMA).
    As an organization dedicated to sustainable fisheries, we support 
the establishment and strengthening of effective regional fishery 
management organizations, also known as RFMOs. RFMOs for high-seas 
areas are especially important as by their very nature, high-seas areas 
are under the control of no one single nation. As we painfully learned 
from high-seas fishing in the Northwest Atlantic Ocean, when there are 
no rules and no enforcement, there is also no conservation. Effective 
multilateral RFMO's are the only way to manage and conserve fisheries 
on the high seas and as such we firmly support their creation in the 
North and South Pacific Ocean. Because our Cape Cod fishermen are not 
involved in the Pacific fisheries nor do they fish in the NAFO area, my 
testimony today will focus on the Port State Measures Agreement aimed 
at deterring and eliminating IUU fishing.
    Make no mistake about it. Illegal, unreported and unregulated 
fishing--IUU fishing--is a multibillion dollar industry and it is 
growing. IUU fishing is fueled by the overall increase in fish prices 
and dwindling global fish stocks. Recent studies suggest that foreign 
illegal fishing is a worldwide business that accounts for up to $23.5 
billion worth of seafood annually, or 26 million tons of fish--six 
times more fish than the entire U.S. commercial fishing industry annual 
catch. Some of the biggest culprits involve fishing vessels flagged 
from EU and Asian nations including Korean, Taiwan, and China. Recent 
research by Daniel Pauly, a scientist at the University of British 
Columbia, found that even though China claims to have the biggest 
distant-water fishing fleet in the world, it only reported 386,000 tons 
of fish caught per year between 2000 and 2011. This same research also 
estimated China was catching more than 12 times the amount of fish it 
reported.
    The United States has been a global leader in fighting IUU fishing. 
Domestically, we have some of the strongest laws aimed at curtailing 
IUU fishing and ensuring that IUU fish does not enter our markets. 
Under the High Seas Driftnet Fishing Moratorium Protection Act, as 
amended, the United States lists nations identified as having vessels 
engaged in IUU fishing and can both deny port privileges to IUU vessels 
and prohibit the import of fish products from IUU nations into the U.S. 
Additionally, the Magnuson-Stevens Act includes some of the strictest 
enforcement measures and penalties to deter U.S. fishermen from 
engaging in IUU fishing. Believe me, the United States Coast Guard, the 
National Marine Fisheries Service and the Department of Homeland 
Security do an excellent job enforcing a whole suite of conservation, 
safety, and security laws on American fishermen.
    Internationally, the U.S. has also taken a leadership role. Through 
the various RFMOs, the United States has pushed for stronger measures 
to deter and detect IUU fishing, including adoption of IUU vessel 
lists, market-related measures, vessel monitoring and surveillance 
programs and prohibiting the transfer of catch at sea. Unfortunately, 
as is the case with most international fishery organizations, 
application and enforcement of these measures remains mixed at best.
    The Port State Measures Agreement is built on the premise that IUU 
fishing can be reduced if IUU fish can be prevented from entering 
global commerce, and the most effective way of accomplishing this is to 
make it extremely difficult for IUU fish to be offloaded in a port. In 
this regard, the Agreement establishes the first global standards to 
control port access from foreign illegal fishing vessels that engage in 
IUU fishing. These standards include mandating parties (port states) to 
require prior notice of a foreign fishing vessel's arrival in their 
port, restricting port entry and port services to foreign vessels known 
or suspected of IUU fishing, adopting minimum dockside inspection and 
training standards, and the sharing of information about IUU vessels 
with the appropriate RFMOs. But what is most critical about the 
Agreement is that it creates an obligation of the signatory nations to 
apply and implement these measures; in other words, these measures are 
to be enforceable, not merely aspirational. The truth is, many coastal 
nations are simply not as rigorous in their enforcement as the United 
States. What's worse is that it is widely understood that around the 
world the illegal sale of additional fish quotas and fishing licenses 
is extremely lucrative which fuels the IUU epidemic.
    So why is this Agreement important to the small, day boat fishermen 
on Cape Cod and, for that matter, my fellow fishermen from Gloucester, 
Boston, New Bedford, and all along the New England coast? The answer is 
simple: for too many years, New England fishermen have sacrificed to 
rebuild highly migratory stocks, while foreign fishermen engaged in IUU 
fishing reap the benefits of our efforts by targeting those very same 
fish. This is particularly true for tuna and swordfish fishermen along 
the New England coast.
    For decades, Atlantic tuna and swordfish quotas for American 
fishermen were significantly reduced for conservation reasons while 
foreign IUU fishing persisted and undermined those attempts at 
sustainability. Unlike inshore fish stocks where the United States can 
exert effective unilateral management within our 200 mile exclusive 
economic zone, highly migratory stocks like tuna and swordfish swim 
throughout the Atlantic Ocean and are therefore susceptible to 
overexploitation by foreign fishermen in international waters. In 
addition to undermining conservation efforts, IUU fish depresses the 
market for American harvested fish both in terms of demand and price. 
In sum, IUU fish undermines our businesses as well as our stock 
rebuilding efforts. Thus, our fishermen feel the double whammy: fish 
that we abstain from harvesting to ensure a sustainable stock are 
harvested instead through IUU fishing, and yet when we do harvest our 
quota, the markets and prices for our fish are depressed because of the 
presence of IUU fish in the marketplace.
    Mr. Chairman, American fishermen and especially Massachusetts 
fishermen have had enough of IUU fishing! We need to level the playing 
field in order to make sure that we have an equal footing in the 
marketplace and to ensure that our conservation efforts and sacrifices 
are not undone by IUU fishing. We believe the Port State Measures 
Agreement is a good place to start and we strongly encourage this 
committee and the entire Senate to approve the Agreement as soon as 
possible.

    Senator Markey. And what high school did you go to?
    Mr. Kane. Actually, I grew up in Yonkers, NY, Senator, 
Yonkers.
    Senator Markey. I can hear that. I can hear it.
    Mr. Kane. But I am a wash-ashore and I have been fishing 
since I have been 23, post-college.
    Senator Markey. Thank you.
    What high school did you go to, Ambassador?
    Ambassador Lagon. I went to Middlesex School in Concord.
    Senator Markey. Right in Concord, beautiful. Welcome, 
Ambassador. Whenever you are ready, please begin.

 STATEMENT OF HON. MARK P. LAGON, GLOBAL POLITICS AND SECURITY 
CHAIR, MASTER OF SCIENCE IN FOREIGN SERVICE PROGRAM, GEORGETOWN 
UNIVERSITY, AND ADJUNCT SENIOR FELLOW FOR HUMAN RIGHTS, COUNCIL 
              ON FOREIGN RELATIONS, WASHINGTON, DC

    Ambassador Lagon Great. Chairman Markey, it is a privilege 
to testify here. I did serve the committee as a staffer. It is 
great to be back. The committee also supported my confirmation 
to become Ambassador at Large to combat human trafficking.
    Somewhat more recently, I have become an uncompensated 
board member of something called the Global Business Coalition 
Against Human Trafficking, that includes some star players like 
Coca-Cola, Delta, Ford, Hilton, and Microsoft. They, as a 
coalition, try to promote measures to shut windows of 
vulnerability to human trafficking that taint vital and 
legitimate business, like some of the measures I want to talk 
about today, if I might.
    I would like to speak on how human trafficking, netting 
people, is intermingled with IUU fishing. I would ask that my 
written testimony be entered into the record, please.
    Increasingly, evidence indicates that labor and even sexual 
exploitation occurs on fishing vessels that exists largely 
unnoticed. In 2013 the Maritime Labor Convention came into 
force to protect the rights of those working on merchant and 
passenger ships, but unfortunately no comparable legal measures 
exist for workers' rights on fishing vessels. Fishing vessels 
are exempt from safety standards and monitoring requirements of 
the International Maritime Organization.
    So fishing vessels of all sizes are regulated solely by the 
country from which they are registered, or, the ``flag'' state, 
rather than ``port'' states where they bring in their cargo and 
would be more likely to get caught doing something illegal. 
This all amounts to a kind of governance ``black hole.'' 
Leading observers in our society, like the Pew Charitable 
Trusts, with great expertise on IUU and enforcement challenges, 
have been focused on exposing this weak regulatory environment.
    It impacts a global fishing industry where the annual 
revenues are somewhere between $80 and $85 billion, and that 
industry is trying to meet increasing demand for seafood. That 
context creates an opportunity for human traffickers to seek 
maximum gain with little risk.
    I would like to quote a 2011 U.N. Office on Drugs and Crime 
report on this territory. It said: ``The most disturbing 
finding about IUU fishing was the severity of the abuse of 
fishers trafficked for the purpose of forced labor. It is cruel 
and inhuman treatment in the extreme. Disturbing in particular 
is the frequency of trafficking in children.''
    So let us take a particular example. Thailand's fishing 
fleet is chronically short on fishermen, short by maybe 60,000 
fishermen a year, and foreign labor makes up 40 percent of that 
gap. Traffickers travel inland in countries like Cambodia and 
Myanmar and recruit men who, with the help of corrupt border 
police, get sold into bondage at sea.
    Some texture comes from an NPR story in 2012 that followed 
a man named Vannak Prum. He looked for a fishing job to help 
pay for his pregnant wife's hospital bills and was sold to a 
Thai fishing vessel, subject to 20-hour work days in dangerous 
and unsanitary conditions, and was held without pay for 3 years 
at sea, including fishing illegally in Indonesian waters.
    A 2009 survey by the U.N. found that 59 percent of migrants 
trafficked aboard Thai fishing vessels witnessed the murder of 
a fellow worker. A nonprofit in 2013 interviewed 14 men from 
Myanmar rescued from Thai fishing vessels and they reported 
seeing beatings, a crew member tortured or executed, and 5 
murdered. In 2013 150 Cambodian and Burmese victims were 
rescued from Thai fishing vessels.
    But it is not just in that region of the world. The State 
Department's Trafficking in Persons Report links trafficking to 
the fishing industry in numerous examples--including women and 
children trafficked for prostitution--in places across the 
Pacific, Asia, and Africa. A nonprofit actually indicated 
evidence in 2013 that a fishing firm in Sierra Leone was 
trafficking girls for sex purposes.
    The U.S. fishing fleet is highly compliant with domestic 
and international laws, while illegal fishing by foreign 
vessels poses real problems for the United States, particularly 
along the U.S.-Mexico border, where there has been a drastic 
increase of incursions of illegal Mexican fishing vessels. 
Recent reports suggest that these same vessels are used to 
smuggle drugs and humans from Northeast Mexico into Texas.
    So the Port State Measures Agreement will strengthen port 
inspections, enhance communications, and deny port entry to 
illegal fishing vessels. It is cost effective, has an 
enforcement mechanism, and is going to increase the cost to 
illegal fishing operations. Increasing accountability and 
economic incentives brought about by the PSMA would help erode 
various criminal activities associated with illegal fishing, 
including human trafficking.
    Twenty-five nations need to ratify the PSMA to come into 
force and the world is waiting for the United States to act as 
an example.
    The Trafficking Victims Protection Act, to conclude, was 
reauthorized in March 2013 with strong bipartisan support, 
bipartisan support as strong as I witnessed as a Senate Foreign 
Relations Committee staffer responsible for helping move 
through the original legislation in 2000. The PSMA complements 
that law and institutes standards consistent with already 
existing U.S. practice and can pay big dividends through 
enhanced accountability.
    I strongly urge the Senate to ratify and implement it and 
send a message to the world that it will not tolerate either 
illegal fishing or gross human rights abuses. All the treaties 
and agreements under consideration today would shed sunshine on 
illegal fishing. They would advance the stewardship of marine 
ecosystems. They would advance fairness to businesses playing 
by the rules, as reflected by my fellow panelists. But they 
would also prevent vulnerable people from being utterly 
dehumanized, violated, and even killed at sea.
    Thank you for inviting me.
    [The prepared statement of Ambassador Lagon follows:]

             Prepared Statement of Ambassador Mark P. Lagon

    Chairman Markey, Senator Rubio, members of the committee, it is a 
privilege to testify here. I served at the committee as a staffer, 
assisting then Senator Sam Brownback and the late Senator Paul 
Wellstone in finalizing the Trafficking Victims Protection Act of 2000. 
The committee 7 years later supported my confirmation to serve as 
Ambassdor at Large directing the Office to Monitor and Combat 
Trafficking in Persons the Act created, where I named the State 
Department's annual award for the U.S. bilateral ambassador doing the 
most to combat trafficking after Senator Wellstone.
    Thereafter, I became CEO of the leading U.S. antitrafficking 
nonprofit, Polaris Project, and in 2012 Founding Board Member 
(uncompensated, to be clear) of the Global Business Coalition Against 
Human Trafficking (gbcat.org), which includes Carlson, Coca Cola, Delta 
Airlines, Ford Motor Company, Hilton Hotels, Microsoft, and NXP 
Semiconductor among its members. This coalition of thought leaders 
promotes best practices to shut the windows of vulnerability to human 
trafficking tainting vital, legitimate business--through means like 
those I will recommend today.
    My tenure from 2007 to 2009 as Ambassador at Large involved 
rebalancing the focus on human trafficking toward that based on 
exploitation for labor--in addition to that horrifically based on 
commoditized sex. Labor trafficking is a broader phenomenon, yet still 
prosecuted today globally less than one-sixth as often as sex 
trafficking, according to the 2013 Department of State ``Trafficking in 
Persons Report.'' \1\ That tenure also witnessed the revelation of how 
often human trafficking occurs in the seafood sector--from the victims 
of forced labor in seafood processing I met in Thailand in 2007, to 
boys fishing in Ghana's Lake Volta so vividly depicted in the 
documentary film on child trafficking, ``Not My Life,'' \2\ which we at 
the State Department Office lent advice to get made.
    The focus of today's hearing is on illegal, unreported and 
unregulated (IUU) fishing, the Port States Measures Agreement (PSMA), 
as well as three other international fisheries agreements. My testimony 
will center on human trafficking as it relates to fishing vessels and 
illegal fishing worldwide. I ask that my written testimony please be 
entered into the hearing record.
    It is important to state from the outset that there is limited 
information available on the relationship between illegal fishing, 
human trafficking, and other criminal activities. These activities can 
occur independently. Obviously only some fishing vessels are engaged in 
illegal fishing, and human trafficking. However, the available data 
suggests that the confluence of these activities at sea does occur all 
too often, requiring a strong response from the United States. These 
illicit activities impact economically disadvantaged and vulnerable 
people, global commerce, and the health of our ocean environment, and 
merits your action. I strongly urge this committee to support and 
advance the Port States Measures Agreement in particular as soon as 
possible.
    Human trafficking is not limited to activities on land, and 
increasingly evidence indicates that labor and even sexual exploitation 
are occurring at sea, and particularly on fishing vessels that exist 
largely unnoticed by the rest of the world. In 2013, the Maritime Labor 
Convention (MLC) came into force to protect the rights of seafarers on 
merchant vessels and passenger ships, but unfortunately, no comparable 
legal measures exist for workers rights aboard fishing vessels 
worldwide. Further, fishing vessels are generally exempt from the 
vessel safety standards and monitoring requirements of the 
International Maritime Organization (IMO). As a result, a range of 
fishing vessels of all sizes and seaworthiness are regulated solely by 
the country from which the vessel is registered, the vessel's ``flag'' 
state, and they can operate across wide swaths of the ocean for months 
or years at a time with relative autonomy. Enforcement actions have 
traditionally been left to the states where the boats are registered, 
or ``flagged,'' rather than the ``port'' states where they bring their 
cargo to shore, where they would be more likely to be caught doing 
something illegal.
    Moreover, fishing boats are much less carefully regulated than 
other ships. Because fishing vessels are not required to have 
identification numbers, enormous ships are known to change names and 
flags of registration to stay a step ahead of authorities. Interpol 
issued two worldwide alerts last year for vessels that had done just 
that.\3\ Fishing vessels are not required to carry satellite 
transponders, which makes it easy for them to evade surveillance. This 
all amounts to a governance ``black hole.''
    This weak regulatory environment impacts a global fishing industry 
with annual revenues of $80-$85 billion that seeks to meet the 
increasing demand for seafood.\4\ These financial and regulatory 
conditions create an opportunity for traffickers to seize maximum gain 
with little risk, at the expense of fellow human beings who they in 
effect enslave. A 2011 report of the United Nations Office on Drugs and 
Crime (UNODC), ``Transnational Organized Crime in the Fishing 
Industry,'' concluded: ``Perhaps the most disturbing finding of the 
study was the severity of the abuse of fishers trafficked for the 
purpose of forced labour on board fishing vessels. These practices can 
only be described as cruel and inhumane treatment in the extreme . . . 
A particularly disturbing facet of this form of exploitation is the 
frequency of trafficking in children in the fishing industry.'' \5\
    We lack robust statistics of the full extent of human trafficking 
abuses associated with the global fishing industry, but a growing list 
of examples highlights the severity of the problem. Bloomberg 
Businessweek conducted a 6-month investigation into debt bondage 
schemes in Indonesia where men, desperate for work, were exploited on 
Korean-flagged fishing vessels operating off the coast of New Zealand. 
Fishing company agents rushed men into signing misleading contracts 
that allowed the fishing company to withhold salaries, and they 
collected collateral assets from workers' families. Further, 
crewmembers were required to work to the company's loosely defined 
``satisfaction,'' or be sent home without pay and charged $1,000 for 
airfare.\6\ Though the crew lived in cramped, unsanitary conditions 
with the daily threat of physical violence and rape, the contract terms 
assessed fines for any worker who ran away from the job. Workers were 
forced to work, knowing their families would ultimately be held 
responsible.
    A 2011 report from the International Organization for Migration 
(IOM) entitled ``Trafficking of Fishermen in Thailand'' provides 
detailed information on the scale and scope of the human trafficking in 
the Thai fishing industry.\7\ Citizens of Southeast Asian countries are 
subjected to human trafficking on Thai vessels that fish on longer 
voyages in foreign waters far from enforcement (as compared to vessels 
that fish in their exclusive economic zone, or EEZ, waters and return 
to port frequently). Workers are vulnerable due to their limited 
potential to leave the ship. In 2012, National Public Radio produced a 
special report \8\ exposing significant human trafficking of men from 
Cambodia and Myanmar on Thai fishing vessels. Thailand has a large 
fishing fleet but is chronically short on fishermen--short by up to 
60,000 per year--and foreign labor makes up 40 percent of the men 
working at sea. The report indicates that human traffickers travel 
inland to remote villages in Cambodia and Myanmar and recruit men who 
they move with the complicity of corrupt border police to be sold into 
bondage at sea.
    The NPR story follows a man named Vannak Prum as he looked for a 
short-term fishing job to pay for his pregnant wife's hospital bills, 
but was sold to a Thai fishing vessel, subject to 20-hour work days in 
dangerous and unsanitary conditions, and held without pay for 3 years 
at sea. Prum's account documents illegal fishing inside of Indonesian 
waters and his vessel evading gunfire before slipping into Malaysian 
waters. Prum eventually escaped by jumping overboard while fishing near 
an island off Malaysia, but once ashore, he was sold into indentured 
servitude on a palm oil plantation by a local police officer. This case 
reflects archetypical human trafficking: vulnerable groups of people 
robbed of their autonomy because they lack any access to justice.
    Fishermen trapped at sea are subjected to violent, and sometimes 
deadly, abuse while aboard Thai vessels. A 2009 survey by the United 
Nations Inter-Agency Project on Human Trafficking (UNIAP) found that 59 
percent of interviewed migrants trafficked aboard Thai fishing boats 
reported witnessing the murder of a fellow worker.\9\ Accidents, 
dangerous working conditions and the fear of being physically abused 
are common, but reports suggest that most vessels had little to no 
medical supplies and would not stop work to seek medical attention for 
the crew.\10\ In 2013, the Environmental Justice Foundation (EJF) 
interviewed 14 Myanmar men rescued from Thai fishing vessels who 
reported beatings by the senior crew, and in two cases, the victims 
reported seeing a fellow crewmember tortured and executed for trying to 
escape, as well as the murder of five others.\11\ Further, EJF 
interviews with rescued victims confirmed that the vessels often fished 
illegally in foreign waters.\12\ In 2013, 150 Cambodian and Burmese 
victims were rescued from Thai fishing vessels in ports around the 
world, but the U.S. State Department reports that this is likely only a 
fraction of the total number of Asian men victimized by trafficking on 
fishing boats.\13\
    The State Department's ``Trafficking in Persons Report for 2013'' 
suggests that the connection between human trafficking and the fishing 
industry is not limited to Thailand, and there are numerous examples 
involving victims--including woman and children trafficked for 
prostitution--from poor and developing countries across the Pacific, 
Asia, and Africa.\14\ In July 2013, a humanitarian organization 
reported that a foreign fishing firm based in Sierra Leone trafficked 
girls for purposes of sex, leaving port with the girls onboard before 
they were rescued by the local authorities.\15\ Many other woman and 
children are not as fortunate.
    The same circumstances that make fishing vessels opportune for 
human trafficking also make them susceptible to other forms of 
transnational organized crime, including drug trafficking. For 
instance, a State Department report notes that drug smuggling is often 
aided by fishing boats moving drugs through the Bahamas, Jamaica, and 
Florida.\16\ The 2011 UNODC report Transnational Organized Crime in the 
Fishing Industry that I previously mentioned addressed the extent to 
which criminal activities within the fishing industry were a threat to 
the law-abiding and legitimate fishing industry, local fishing 
communities, and the public at large. The study confirmed labor abuses 
aboard fishing vessels, as well as the links between illegal fishing, 
and transnational organized crime, and drug trafficking. Specifically, 
it found that fishing vessels are used for smuggling migrants, drugs 
(primarily cocaine), and weapons, and committing acts of terrorism. 
Fishing vessels are used as ``mother ships'' serving as base stations 
from which criminal activities are coordinated, as supply vessels for 
other vessels engaged in criminal activities, or simply as cover for 
clandestine activities at sea and in port. The study also found that 
some transnational fishing operators are engaged in marine living 
resource crime. These fishing operations are highly sophisticated and 
employ complex incorporation and vessel registration strategies to 
avoid tracking. They coordinate at-sea vessel support services to aid 
in moving illegally caught fish to market, often supported by 
fraudulent catch documentation.\17\
    As stated at the outset, the data that explicitly connects illegal 
fishing, human trafficking, and other criminal activities is limited, 
but mounting evidence suggests that fishing vessels engaged in one of 
these illicit activities are likely to also engage in the others. There 
is evidence of widespread IUU fishing occurring in the Asia-Pacific 
region, estimated at 3.4-8.1 million tons per year,\18\ costing 
countries in that region significant annual revenue losses (losses 
estimated, for instance, at $2.5 billion in 2007 \19\) and resulting in 
overexploited fisheries. The presence of IUU activity overlaps with 
human trafficking abuses aboard fishing vessels and also within 
communities that service the fishing vessels in port. The coincidence 
of these activities indicates that these problems are related, and are 
being driven by the global demand for fish and fish products.
    There is a significant variation of compliance and enforcement, as 
with many issues, within national fishing fleets, with the U.S. fleet 
generally considered highly compliant with domestic and international 
laws, while others, such as Thailand have a poor record, implicated in 
cases of illegal fishing, human trafficking abuses, and human 
smuggling. Despite the high compliance rates within the U.S. fleet, 
illegal fishing by foreign vessels poses problems for the United 
States, particularly along the U.S.-Mexico border where there has been 
a drastic increase in recent years in the number of incursions of 
illegal Mexican fishing vessels called ``lanchas'' into U.S. waters. 
Local U.S. Coast Guard officials describe these illegal Mexican fishing 
vessels as a ``persistent challenge to U.S. sovereignty,'' \20\ and 
recent reports suggest that these same vessels are also used to smuggle 
drugs and humans from northeast Mexico into Texas.\21\ Likewise, small 
boats that would typically be used for fishing are a common mode of 
transport for undocumented migrants attempting to enter the United 
States, using California beaches as a landing point. Smugglers are paid 
up to $9,000 per person for these dangerous voyages that often end in 
deaths.\22\
    Human trafficking in particular is a complex, international problem 
that must be addressed through a variety of legal and diplomatic 
channels. Once entered into force, the Port State Measures Agreement 
will strengthen port inspections, enhance communications, and deny port 
entry--including port services and supplies--to suspected illegal 
fishing vessels. The PSMA is a cost-effective enforcement mechanism 
that will begin to change the economic incentives--increasing the cost 
associated with illegal fishing because it will be more difficult for 
illegal vessels to access global markets. Once a suspected illegal 
fishing vessel is identified, countries will coordinate enforcement 
efforts to ensure that the suspected vessel is refused entry at other 
ports until the vessel agrees to be inspected or is prosecuted. The 
increased accountability and economic incentives in the PSMA could help 
to erode other criminal activities that are often associated with 
illegal fishing, including human trafficking. Currently, the European 
Union and 8 other nations have ratified the agreement, and 25 nations 
must ratify for the instrument to go into force. The world is waiting 
for the United States to act, and many nations will undoubtedly follow.
    In 2000, Congress enacted the Trafficking Victims Protection Act 
which defined trafficking for the purposes of labor or sex and provided 
critical measures to protect human trafficking victims. This law was 
reauthorized for the fourth time in March 2013 with bipartisan support 
as strong as I witnessed as a staff member of this committee in 2000. 
The Port State Measures Agreement in particular complements this widely 
supported law, and institutes standards that are consistent with 
existing U.S. practice, and could pay big dividends globally through 
enhanced accountability, monitoring, communication, and enforcement of 
suspect fishing vessels that may be engaged in human trafficking or 
other criminal activities. The Port States Measures Agreement provides 
a pathway to beginning to address the complicated problem of human 
trafficking on the high seas. I strongly urge the U.S. Senate to 
demonstrate leadership and immediately ratify and implement the Port 
State Measures Agreement, sending a message to the world that we will 
not tolerate illegal fishing and its associated human rights 
violations.
    A 2009 peer-reviewed scientific study estimated that the worldwide 
annual value of losses from illegal and unreported fishing could reach 
$23.5 billion.\23\ Yet, vessels engaged in illegal, unregulated fishing 
not only steal precious food resources off the coasts of poor countries 
and damage marine ecosystems. They engage in drug smuggling. Most 
serious, they also prey on human beings. Illicit fishing worldwide 
appears to be rife with human trafficking. All the treaties and 
agreements under consideration at this hearing would regularize and 
shed sunshine on that fishing. As a result they would not only prove 
more stewardly for marine econsystems, and more fair to businesses 
playing by the rules--as reflected by my fellow panelists--but helpful 
to prevent vulnerable people from being utterly dehumanized, violated, 
and even killed in that illicit fishing.

----------------
End Notes

    \1\ U.S. Department of State. (2013). ``Trafficking in Persons 
Report--June 2013.'' See http://www.state.gov/j/tip/rls/tiprpt/2013/.
    \2\ See http://notmylife.org/fishing-boys-lake-volta.
    \3\ See http://news.msn.co.nz/nationalnews/8767033/nz-goes-to-
interpol-over-rogue-trawler.
    \4\ Dyck, A.J. and Sumaila, U.R. (2010). ``Economic Impact of Ocean 
Fish Populations in the Global Fishery.'' Journal of Bioeconomics, DOI: 
10.1007/s10818-010-9088-3.
    \5\ United Nations Office on Drugs and Crime (UNODC). 
``Transnational Organized Crime in the Fishing Industry--Focus on: 
Trafficking in Persons, Smuggling of Migrants, and Illicit Drugs 
Trafficking.'' (2011). See http://www.unodc.org/documents/human-
trafficking/Issue_ 
Paper_-_TOC_in_the_Fishing_Industry.pdf.
    \6\ Skinner, E. Benjamin. (February 23, 2012). ``The Fishing 
Industry's Cruelest Catch,'' Bloomberg Businessweek. See http://
www.businessweek.com/printer/articles/22538-the-fishing-industrys-
cruelest-catch.
    \7\ International Organization for Migration (IOM). (2011). 
Trafficking of Fishermen in Thailand. See https://www.iom.int/jahia/
webdav/shared/shared/mainsite/activities/countries/docs/thailand/
Trafficking-of-Fishermen-Thailand.pdf.
    \8\ Service, Shannon, and Palmstrom, Becky. (June 19, 2012). 
``Confined to a Thai Fishing Boat, For Three Years.'' NPR. See http://
www.npr.org/2012/06/19/155045295/confined-to-a-thai-fishing-boat-for-
three-years.
    \9\ United Nations Inter-Agency Project on Human Trafficking 
(UNIAP). (2009). ``Exploitation of Cambodian Men at Sea.'' See http://
www.no-trafficking.org/reports_docs/siren/siren_cb3.pdf.
    \10\ International Organization for Migration (IOM). (2011). 
``Trafficking of Fishermen in Thailand.'' See https://www.iom.int/
jahia/webdav/shared/shared/mainsite/activities/countries/docs/thailand/
Trafficking-of-Fishermen-Thailand.pdf.
    \11\ Environmental Justice Foundation. (2013). ``Sold to the Sea--
Human Trafficking in Thailand's Fishing Industry.''See http://
ejfoundation.org/sites/default/files/public/Sold_to_the_ 
Sea_report_lo-res-v2.pdf.
    \12\ Ibid.
    \13\ U.S. Department of State. (2013). Trafficking in Persons 
Report--June 2013. See http://www.state.gov/j/tip/rls/tiprpt/2013/.
    \14\ Ibid.
    \15\ Voice of America. (July 19, 2013). ``Sierra Leone: Government 
Targets Human Trafficking.'' Voice of America. See http://
allafrica.com/stories/201307200024.html.
    \16\ U.S. Department of State. (2012). International Narcotics 
Control Strategy Report (INCSR). See http://www.state.gov/j/inl/rls/
nrcrpt/2012/vol1/184098.htm.
    \17\ United Nations Office on Drugs and Crime (UNODC). (2011). 
Transnational Organized Crime in the Fishing Industry--Focus on: 
Trafficking in Persons, Smuggling of Migrants, and Illicit Drugs 
Trafficking. See http://www.unodc.org/documents/human-trafficking/
Issue_Paper_-_TOC_in_the_Fishing_Industry.pdf.
    \18\ Asian-Pacific Economic Cooperation Fisheries Working Group. 
(2008). ``Assessment of Impacts of Illegal, Unreported and Unregulated 
(IUU) Fishing in the Asia-Pacific.'' APEC Singapore. See http://
www.imcsnet.org/imcs/docs/apec_2008_iuu_fishing_assessmt_se_asia.pdf.
    \19\ United Nations Food and Agriculture Organization (FAO). (2007) 
``Fishing Capacity Management and IUU Fishing in Asia.'' Bangkok.
    \20\ Mendoza, Jesse. (September 6, 2013). ``U.S. Coast Guard Seizes 
1,000 Pounds of Illegally Caught Fish.'' Valley Morning Star. See 
http://www.valleymorningstar.com/news/local_news/article_a1a39b6a-1772-
11e3-a961-001a4bcf6878.html.
    \21\ Tompkins, Shannon. (June 11, 2013). ``Gulf Poachers Threaten 
to deplete Fisheries.'' Houston Chronicle. See http://
www.houstonchronicle.com/sports/outdoors/article/Gulf-poachers-
threaten-to-deplete-fisheries-4589290.php.
    \22\ Carcamo, Cindy. (September 14, 2012). ``For Illegal 
Immigrants, Ocean is the New Desert.'' Orange County Register. See 
http://www.ocregister.com/articles/san-371399-people-smuggling.html.
    \23\ Agnew, David J., et al. (February 25, 2009). ``Estimating the 
Worldwide Extent of Illegal Fishing.'' PLOS ONE. See http://
www.plosone.org/article/info:doi/10.1371/journal.pone.0004570.

    Senator Markey. Beautiful. Thank you, Mr. Ambassador.
    Now we will hear from you, Mr. Gleason.

 STATEMENT OF MARK GLEASON, EXECUTIVE DIRECTOR, ALASKA BERING 
                   SEA CRABBERS, SEATTLE, WA

    Mr. Gleason. Good afternoon, Mr. Markey and members--well, 
no members of the committee. Thank you for the opportunity to 
testify at today's hearing. My name is Mark Gleason and I am 
the executive director of the Alaska Bering Sea Crabbers. We 
are a Seattle-based trade association representing 70 percent 
of the crab fishermen in the Bering Sea. Our members are small 
independently owned family businesses providing living wage 
jobs to thousands of Americans. These jobs include not just 
fishing jobs, but also jobs in the seafood processing sector, 
transportation and logistics, restaurant workers, and those in 
the retail trade. We brave the waters of the Bering Sea to 
produce the highest quality crab for our domestic and 
international customers.
    I am here today, like the other panelists, to discuss the 
issue of illegal, unreported, and unregulated fishing. As you 
have heard, globally the IUU seafood trade results in economic 
losses of between $10 and $23 billion annually. Here in the 
United States, the Bering Sea crab fishery illustrates a prime 
example of what can happen to the market when it is flooded 
with IUU product.
    In 2011, the Alaskan fishery brought in roughly 80 million 
pounds of live crab. The official Russian harvest in that year 
was about 91 million pounds. However, upon further examination 
of Russian trade data it appears that Russia actually exported 
closer to 189 million pounds in 2011. This 98-million-pound 
discrepancy can certainly be attributed to IUU production. Not 
surprisingly, in Alaska we experienced a 25-percent decline in 
the price we received for our crab as this pulse of illegal 
Russian crab entered not only the United States market, but the 
global supply chain as well.
    Unfortunately, 2011 was not unique. A recent article in the 
Wall Street Journal noted that illegal Russian crab on the 
world market increased by an additional 36 percent between 2011 
and 2012. That same article cited statistics from NOAA 
indicating that illegal Russian crab has cost U.S. fishermen 
$560 million since 2000. As you heard from Senator Murkowski, 
this also cost Alaskan coastal communities millions in lost tax 
revenue. Clearly, we must take action to prevent further harm 
to U.S. fishermen and fishing-dependent coastal communities.
    As a globally traded seafood commodity, the supply chain 
for Russian crab from the point of harvest to the point of 
consumption is exceedingly complex. Initially the crab is 
harvested illegally in Russian waters by vessels flying flags 
of convenience. Although these vessels are not flying the 
Russian flag, they are oftentimes crewed and controlled by 
Russian nationals, in violation of Russian law.
    The crab is then offloaded to transport vessels at sea. 
This practice is known as transshipment. These transshipment 
vessels then deliver the crab to ports in either Japan or South 
Korea, where it is processed and integrated into the supply 
chain. Along the way there are multiple opportunities to 
obscure the origin of this illegal product, either through 
misrepresentation involving fraudulent paperwork or by 
commingling the illegal product with legal product. This makes 
it nearly impossible for the end user to distinguish between 
legally and illegally caught crab. This illegal supply chain is 
driven by highly motivated and sophisticated international 
criminal conspiracies operating in multiple countries.
    My association is under no illusion that there is a single 
silver bullet that will remedy this situation. We understand 
that it will take a combination of intergovernmental 
cooperation, private sector initiatives in both the United 
States and Russia, and a robust regulatory regime with adequate 
enforcement capacity to put a dent in this illicit trade.
    Operating under the assumption that all seafood products 
must eventually come to port, the Agreement on Port State 
Measures is a major achievement in the global fight against 
IUU. This agreement requires nations to effectively police 
their ports and ensure that illegally harvested seafood 
products are not able to enter global trade. The United States 
was a leader in drafting this agreement. In order for us to 
continue to demonstrate our leadership, we must act now to 
ratify the agreement and then pass domestic legislation to 
fully implement the agreement here at home.
    I urge the committee to take the first step and report this 
agreement favorably.
    The Bering Sea crab fishery is a recognized model for 
sustainability. The fishery is prosecuted under stringent 
scientifically informed catch limits. Our fishing gear is 
environmentally sensitive and has a minimal impact on the sea 
floor. We have a transparent management process guided by 
science and stakeholder involvement. We have spent considerable 
time and effort to fully develop our markets, both here and 
abroad. We are proud of the product we bring to market and we 
welcome fair competition.
    But the playing field must be level. As long as illegal 
Russian crab is afforded unfettered access to the world market, 
the playing field will not be level.
    The agreement before you today is a significant step in the 
right direction. The choice is clear. We can support U.S. 
fishermen and coastal communities or we can continue to allow 
pirates and international criminals to profit from the illicit 
trade in IUU Russian crab.
    [The prepared statement of Mr. Gleason follows:]

                 Prepared Statement of Mark H. Gleason

    Good afternoon, Mr. Chairman and members of the committee. Thank 
you for the opportunity to testify at today's hearing. My name is Mark 
Gleason and I am the Executive Director of the Alaska Bering Sea 
Crabbers. We are a Seattle-based trade association representing 70 
percent of the crab fishermen in the Bering Sea. Our members are small, 
independently owned family businesses providing living wage jobs to 
thousands of Americans. These jobs include not just fishing jobs, but 
also jobs in the seafood processing sector, transportation and 
logistics, restaurant workers and those in the retail trade. We brave 
the waters of the Bering Sea to produce the highest quality crab for 
our domestic and international customers.
    I am here today to discuss the issue of Illegal, Unreported, and 
Unregulated fishing. For the remainder of my testimony I will refer to 
this as ``IUU.'' Globally the IUU seafood trade results in economic 
losses of between $10-$23 billion annually.\1\
---------------------------------------------------------------------------
    \1\ Agnew DJ, Pearce J, Pramod G, Peatman T, Watson R, et al. 
(2009) ``Estimating the Worldwide Extent of Illegal Fishing.'' PLoS ONE 
4(2); e4570.
---------------------------------------------------------------------------
    Here in the U.S., the Bering Sea crab fishery illustrates a prime 
example of what can happen to the market when it is flooded with IUU 
product. In 2011 the Alaskan fishery brought roughly 80 million pounds 
of live crab to market. The ``official'' Russian harvest was about 91 
million pounds that year. However, upon further examination of Russian 
trade data, it appears that Russia actually exported closer to 189 
million pounds in 2011. This 98 million pound discrepancy is attributed 
to IUU production. Not surprisingly, in Alaska we experienced a 25 
percent decline in the price we received for our crab as this pulse of 
illegal Russian crab entered not only the U.S. market, but the global 
supply chain as well.
    Unfortunately, 2011 was not unique. A recent article in the Wall 
Street Journal \2\ noted that illegal Russian crab on the world market 
increased by an additional 36 percent between 2011 and 2012. That same 
article cited statistics from the National Oceanic and Atmospheric 
Administration indicating that illegal Russian crab has cost U.S. 
fishermen $560 million since 2000. Alaskan coastal communities have 
also lost out on roughly $11 million in tax revenue during this same 
period. Clearly we must take action to prevent further harm to U.S. 
fishermen and fishing dependent coastal communities.
---------------------------------------------------------------------------
    \2\ Carlton, Jim. ``Alaska Crabbers Get Pinched by Poachers.'' Wall 
Street Journal. 3 April 2013.
---------------------------------------------------------------------------
    As a globally traded seafood commodity, the supply chain for 
Russian crab from the point of harvest to the point of consumption is 
exceedingly complex. Initially, the crab is illegally harvested in 
Russian waters by vessels flying what are known as ``flags of 
convenience.'' Cambodia and Sierra Leone are two of the most common 
flags of convenience. Although these vessels are not flying the Russian 
flag, they are often times crewed and controlled by Russian nationals, 
in violation of Russian law. The crab is then off-loaded to transport 
vessels at sea. This practice is known as transshipment. These 
transshipment vessels then deliver the crab to ports in either Japan or 
South Korea where it is processed and integrated into the supply chain. 
Along the way there are multiple opportunities to obscure the origin of 
this illegal product either through misrepresentation involving 
fraudulent paperwork or by comingling the illegal product with legal 
product. This makes it nearly impossible for the end user to 
distinguish between legally and illegally caught crab. This illegal 
supply chain is driven by highly motivated and sophisticated 
international criminal conspiracies operating in multiple countries.
    My association is under no illusion that there is a single ``silver 
bullet'' that will remedy this situation. We understand it will take a 
combination of intergovernmental cooperation, private sector 
initiatives in both the U.S. and Russia, and a robust regulatory regime 
with adequate enforcement capacity to put a dent in this illicit trade.
    Operating under the assumption that all seafood products must 
eventually come to port, the Agreement on Port State Measures to 
Prevent, Deter, and Eliminate Illegal, Unreported, and Unregulated 
Fishing is a major achievement in the global fight against IUU. This 
Agreement requires Nations to effectively police their ports and ensure 
that illegally harvested seafood products are not able to enter global 
trade. The United States was a leader in drafting this Agreement. In 
order for us to continue to demonstrate our leadership we must act now 
to ratify the Agreement and then pass domestic legislation to fully 
implement the Agreement here at home. I urge the committee to take the 
first step and report this Agreement favorably.
    The Bering Sea crab fishery is a recognized model for 
sustainability. The fishery is prosecuted under stringent, 
scientifically informed catch limits. Our fishing gear is 
environmentally sensitive and has a minimal impact on the seafloor. We 
have a transparent management process guided by science and stakeholder 
involvement. We have spent considerable time and effort to fully 
develop our markets, both here and abroad. We are proud of the product 
we bring to market and welcome fair competition. But the playing field 
must be level. As long as illegal Russian crab is afforded unfettered 
access to the world market, the playing field will not be level. The 
Agreement before you today is a significant step in the right 
direction. The choice is clear. We can support U.S. fishermen and 
coastal communities or we can continue to allow pirates and 
international criminals to profit from the illicit trade in IUU Russian 
crab.
    Thank you once again for the opportunity to testify and I would be 
happy to answer any questions.

    Senator Markey. Thank you, Mr. Gleason, very much.
    Captain Kane, you testified about your extensive experience 
as a fishermen. In your experience, do American fishermen 
engage in illegal fishing?
    Mr. Kane. You know, Senator, as constrained as all U.S. 
fisheries have become, as you well know, you always get a 
couple of bad apples in the barrel, but over the years, with 
National Marine Fisheries, electronic vessel trip reports, 
vessel monitoring systems--think of 1984, satellites in the 
sky--we know where our boats are. So, as I said, you might get 
a couple of bad apples.
    Senator Markey. You are saying compliance, though.
    Mr. Kane. Yes. Yes, over the years National Marine 
Fisheries, NOAA, Coast Guard, we have gotten much better 
compliance here in the States.
    Senator Markey. So you are saying it is a vast difference 
between out on the open sea in terms of enforcement of illegal 
fishing?
    Mr. Kane. Well, there is no enforcement on the open sea, 
Senator.
    Senator Markey. I know that. I am trying to make it--it is 
a leading question in the courtroom. I am trying to give you an 
opening.
    Mr. Kane. Okay. Well, you know, take for example Cape Cod. 
You only have so many ports where you can land and enforcement 
is standing at the dock, whether it be State enforcement, Coast 
Guard, Federal enforcement. That is why I believe with foreign 
fishing vessels coming into the Nation you need stated ports 
where they have to call in before they land so you can send an 
inspection team down there to inspect cargo.
    Senator Markey. To you, Mr. Gleason. You testified about 
the economic impact of illegal fishing on fishermen in your 
region. How will the Port State Measures Agreement help 
mitigate that problem?
    Mr. Gleason. Well, as other folks have testified, it will 
raise the cost of doing business for pirate fishermen, reducing 
the economic incentives and hopefully reducing the supply that 
is available on the market.
    Senator Markey. Captain Kane, how will it impact yours?
    Mr. Kane. Our fishing?
    Senator Markey. How does the impact of illegal fishing 
affect your industry and how will this agreement help to 
mitigate the problems?
    Mr. Kane. Well, for instance, bluefin tuna, which is a 
precious and desired fish in Japan, you have got a lot of 
piracy going on on the high seas, fish being shipped directly 
to Japan, and we are in convention--as the gentleman from NOAA 
was speaking about ICCAT, the International Commission for the 
Conservation of Atlantic Tuna, and if we can eliminate the high 
piracy at sea our fishermen will benefit in price on the 
Japanese market.
    Senator Markey. What kind of benefits would American 
fishermen receive? What does it mean financially to them?
    Mr. Kane. Well, first and foremost, you would save the 
species, because undocumented fish--once again, Senator, bad 
numbers into a computer model, no matter how many sensitivity 
runs you make you are going to get bad data out, and then 
management has to make decisions. So if you do not know what is 
being taken from the ocean, first and foremost the 
sustainability of the stock, that particular stock.
    If you could stop the piracy--once again, it is supply and 
demand on the fresh Japanese fish market. Fewer fish on the 
market, tattooed fish, allocated fish, fish that we know were 
taken from the high seas, legal fish, will return a better 
price.
    Senator Markey. Ambassador Lagon, can you discuss the role 
that international governmental communication plays in 
combating human trafficking and what role the Port State 
Measures Agreement could play in increasing that communication?
    Ambassador Lagon Thanks for the question. Human trafficking 
is fundamentally a human rights issue. But to the degree that 
it is a law enforcement issue, the increased capacity of 
nations to communicate with each other about patterns makes 
great sense. The PSMA and the other agreements that the Senate 
Foreign Relations Committee are looking at would facilitate the 
ability of states to share information when there is a tip, 
including the ability of a flag state of a vessel to talk to a 
port state. This business of now essentially leaving the 
regulation of vessels entirely to the flag state, not being 
able to catch them where it would be easiest to spot--in 
ports--would be ameliorated.
    All sorts of examples of human trafficking that I saw in 
the State Department role I played from 2007 to 2009 involve 
cooperation between law enforcement, immigration officials, and 
others. So the treaties will shine a light on this this problem 
and better permit that coordination.
    Senator Markey. You testified that there is a governance 
black hole. As we heard in the testimony today, participation 
in regional fisheries organizations like the ones under 
consideration today increase governance and law enforcement 
presence on the high seas. In your work have you come across a 
connection between organizations like these and reductions in 
illegal fishing, human trafficking, other criminal activities 
such as that which you described in your testimony?
    Ambassador Lagon Well, the empirical data on the extent of 
human trafficking is as hard to pin down as the data on the 
extent of illegal fishing. But these regional organizations and 
the commissions that have been created by the three regional 
agreements will facilitate an enforcement capacity of nations. 
I think one of the best bargains is, in fact, the technical 
assistance they would give to smaller, poorer states to be able 
to develop that capacity. That is a pretty small investment for 
the United States to make in something that will serve the 
interests of business, serve the interests of preserving 
biodiversity, and especially serve the goal of being able to 
catch people who would enslave other human beings at sea.
    Senator Markey. Let me finish up the hearing this way. Let 
me give each one of you, in reverse order of recognition for 
the opening statement, an opportunity to just tell us the key 
thing, couple of things, you want this committee to remember, 
you want the Senate to remember as we consider whether or not 
to ratify these treaties. So we will begin with you, Mr. 
Gleason.
    Mr. Gleason. Well, as I mentioned in my testimony, I 
represent many hardworking American fishermen and we provide 
jobs up and down the supply chain. We play by the rules. We are 
fully engaged in the management process. We support the science 
that goes into that. We play by the rules, and we just want a 
level playing field. The Port State Measures Agreement will 
help to get us that level playing field.
    Senator Markey. Thank you, Mr. Gleason.
    Ambassador.
    Ambassador Lagon Thank you. As far as human trafficking 
goes and how these agreements and the PSMA would affect it, 
there are two key messages, I believe. First, human trafficking 
is always about some group of people--women, children, 
migrants, people of less privileged castes in India--not having 
access to justice. In these areas where there is a grey zone, 
where there is no governance, where there are no eyes 
monitoring, those people who may have rights on paper, in 
treaties, or in laws, are not getting protected. These 
agreements would help with that.
    Then secondly, human trafficking is about bad people, 
transnational criminals, having an incentive of profit and very 
little risk. The PSMA in particular would change that incentive 
structure, would make it more economically costly for people to 
pursue IUU fishing and in turn costly to be able to pursue 
forced labor or even sexual exploitation, by removing this 
``black hole'' of governance.
    Senator Markey. Thank you.
    Mr. Kane.
    Mr. Kane. I can sum it up in probably three: It would be 
good for U.S. fishermen, east coast, west coast, nationally; it 
would be good for the fish stocks, all these fish we are trying 
to save so we can fish them at a sustainable rate; it would be 
good for the United States monetarily.
    Senator Markey. Thank you, and we thank each of you. I 
would like to wrap up the hearing by reiterating a statement 
that Captain Kane has in his written testimony: ``Fishermen 
feel the double whammy of the fish, that we abstain from 
harvesting to ensure a sustainable stock, are harvested through 
illegal fishing, and yet when we do harvest our quota the 
markets and prices for our fish are depressed because of the 
presence of that illegal catch in the marketplace.''
    So I think that we have our work cut out for us, but I 
think it is imperative that we pass this treaty, that we pass 
all the treaties, and we do so this year, and we send a signal 
to the world, we send a signal to all of these pirates, all of 
these criminals, that finally the United States is going to be 
a cop on the beat enforcing these laws. Finally, we are going 
to be protecting our fishermen and protecting these species. I 
think it is imperative that, going forth from this committee 
today, that they hear this message and get ready for these 
treaties to be ratified.
    We thank each one of you for your testimony. We thank you 
for your work on this issue. The record will remain open until 
February 21 for additional information to be included within 
it.
    With that, this hearing is adjourned. Thank you.
    [Whereupon, at 4:19 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Response of Deputy Assistant Secretary David Balton to Question 
                  Submitted by Senator Robert Menendez

    Question. What is the administration's position on whether the four 
agreements considered at the hearing on February 12, 2014, are self-
executing in the United States?

    Answer. It is the administration's position that none of the four 
agreements considered at the hearing on February 12, 2014, are self-
executing.
                                 ______
                                 

   Responses of Deputy Assistant Secretary David Balton to Questions 
                    Submitted by Senator Marco Rubio

    Question. If the U.S. ratifies the South Pacific Convention, what 
is our estimated budget obligation?

    Answer. Under current conditions, the U.S. assessed contribution to 
the South Pacific Regional Fisheries Management Organization is 
estimated at $65,000 annually. Exact costs are variable, based on the 
overall budget level of the Commission, foreign exchange rates, and the 
extent of U.S. catches in the Convention Area.

    Question. In your testimony you state that the Northwest Atlantic 
Convention Amendments under consideration would reduce the U.S. 
budgetary contributions by one-third.

  <diamond> Do you have an exact estimate of the amount that would be 
        due?
  <diamond> Would this increase the contributions of other countries 
        and, if so, do you foresee other convention countries opposing 
        this amendment?

    Answer. Our current assessed contribution to NAFO is approximately 
$295K annually. Costs are variable based on foreign exchange rates and 
the level of U.S. catches but, under current conditions, this would be 
reduced to approximately $200K.
    Yes, this would increase the contributions of other nations 
accordingly, but the increased cost would be spread across the other 11 
members of the Commission. The amended budget formula corrects a 
recognized and unintended anomaly that resulted in the overcounting of 
U.S. harvest for the purposes of the budget calculation. As a result, 
all members of the Commission have supported this amendment without 
objection.

    Question. In your testimony you describe other illegal activities 
which are often intertwined with illegal, unreported, unregulated 
fishing (IUU) including organized crime and labor exploitation but fail 
to name human trafficking. There have been numerous report of human 
trafficking has been linked to IUU fishing.

  <diamond> Can you go into more detail about how the tools of the IUU 
        Agreement will combat organized crime, labor exploitation, and 
        human trafficking?

    Answer. The Port State Measures Agreement will help combat IUU 
fishing and the associated activities identified above in a number of 
ways. First and foremost, the agreement will establish new rules and 
requirements for vessels entering the ports of States party to the 
agreement, provide heightened authority for port inspectors to board 
and inspect fishing vessels entering their ports, and allow them to 
deny entry into ports for vessels identified as having engaged in IUU 
fishing. Collectively, the measures will make it easier to detect and 
take action against such activities, raise the costs to those engaged 
in illegal activities, and take some of these vessels off the water. To 
be clear, the agreement is focused on combating IUU fishing, but to the 
extent that it constrains this illegal activity, it will have ancillary 
benefits in these other areas.

    Question. As you know, Cuba and China are Contracting Parties to 
the South 
Pacific Convention. Under the Convention's Article 19, Contracting 
Parties must cooperate with developing Contracting Parties by 
providing:

    i. Financial assistance;
    ii. Technical assistance relating to human resources development;
    iii. Technical assistance;
    iv. Transfer of technology; and
    v. Advisory and consultative services.

  <diamond> What are the implications of Art. 19 of this Convention 
        with respect to U.S. policy on Cuba? What are the implications 
        of Art. 19 with respect to U.S. policy on China?

    Answer. Article 19 will not result in any change in U.S. policy 
with respect either to Cuba or China. Among other things, Article 19 
notes that, ``in giving effect to the duty to cooperate, . . . members 
of the Commission shall take into account the special requirements of 
developing coastal State Contracting Parties in the region, in 
particular, the least developed among them and small island developing 
States (emphasis added).
    To the extent the U.S. becomes a party to the Convention, it would 
not hamper our ability to adhere to all existing provisions of law 
prohibiting assistance to Cuba.
    China, which is Party to other fisheries Conventions with similar 
provisions, has never sought any of this kind of assistance for itself, 
and we would not expect it to do so under the South Pacific Convention. 
More important Article 19(4) is clear that cooperation activities ``may 
include'' provision of the types of assistance listed in the question 
above, but creates no obligation on any Party to do so.

    Question. How does U.S. ratification of any of these Conventions 
affect current U.S. policy regarding UNCLOS?

    Answer. U.S. ratification of these Conventions will not affect 
current United States policy regarding the Law of the Sea Convention. 
The United States is already a Party to several regional fisheries 
management organizations for which the underlying Conventions contain 
provisions comparable to those in the current agreements.

    Question. Can the U.S. indefinitely and effectively protect its 
interests and discharge its obligations under any of these Conventions 
without ratification of UNCLOS?

    Answer. As noted in the previous response, the United States is a 
Party to several regional fisheries management organizations whose 
underlying Conventions contain provisions based on the same principles 
as the four agreements currently pending before the Senate. U.S. 
ratification of the Law of the Sea Convention would strengthen our 
ability to advance U.S. objectives in a wide range of areas, but would 
not prevent us from protecting U.S. interests and discharging our 
obligations under these four Conventions.
                                 ______
                                 

              Responses of Russell Smith III to Questions 
                    Submitted by Senator Marco Rubio

    Question. In your testimony, you state that the minimum standards 
set by Port States Agreement track closely to what the United States 
already does. What are the differences between current U.S. standards 
and the Port States Agreement's minimum standards?

    Answer. The minimum standards for the training of inspectors and 
conduct of inspections contained in the Port State Measures Agreement, 
once broadly implemented, will have a significant impact on the global 
effort to combat illegal, unreported, and unregulated (IUU) fishing. 
Those minimum standards were drafted with significant participation 
from NOAA and the U.S. Coast Guard, and they are consistent with 
current U.S. practice.
    Apart from the establishment of minimum standards for inspections, 
the most significant binding obligation in the Port State Measures 
Agreement is the obligations to deny listed IUU fishing vessels port 
entry unless they are being allowed to enter for the purpose of 
inspection or enforcement. When this obligation is implemented NOAA 
anticipates an active role, along with the U.S. Coast Guard, in the 
screening of vessels seeking entry into U.S. ports to assess their 
listed status or, for vessels that are not included on a Regional 
Fishery Management Organization's IUU vessel list, respond to evidence 
of IUU fishing or activities in support of IUU fishing. Specifically, 
the U.S. Coast Guard and NOAA will continue to improve cooperation on 
the Advance Notice of Arrival process for foreign vessels entering U.S. 
ports for the purposes of implementing the agreement and the two 
agencies have already had discussions on developing the needed level of 
collaboration in order to carry out the requirements of restricting 
port access when needed.

    Question. What budgetary impacts, if any, will result from NOAA's 
implementation of the Port States Agreement as the primary agency? Does 
this in any way expand NOAA's role beyond activities already being 
conducted at the agency?

    Answer. NOAA is not seeking specific funding increases to carry out 
its responsibilities in the agreement beyond what has been included to 
support a broader array of international enforcement activities in the 
FY 2015 Budget request.
    As discussed above, NOAA will have an increased role in 
coordinating with the U.S. Coast Guard on the evaluation of foreign 
fishing vessels seeking entry to U.S. ports to determine if there is 
evidence of IUU fishing or support of IUU fishing. NOAA will also have 
an increased role, again in coordination with the U.S. Coast Guard, in 
restricting access to port services for IUU fishing vessels detected 
within a U.S. port.
    Finally, the Port State Measures Agreement has information-sharing 
requirements that require the sharing of inspection results and actions 
taken with flag states, relevant coastal states, Regional Fishery 
Management Organizations and other relevant international bodies. This 
will be a new process that will require NOAA to develop a 
communications mechanism to share the information.

    Question. Do you anticipate any additional economic burden at ports 
in the United States as a result of the Port States Agreement?

    Answer. Because there are a relatively small number of known IUU 
fishing vessels, and only two such vessels have ever entered a U.S. 
port, impacts are likely to be negligible. However, there could be 
negative economic impacts on U.S. companies providing port services as 
a result of lost business if a fishing vessel is denied port entry or 
access to port services. There may also be some costs to state, local 
and territorial authorities in coordinating with NOAA to implement the 
obligations under the Port States Measures Agreement regarding the 
denial of access to port services to IUU fishing vessels determined to 
be in a U.S. port.
    For example, the Port State Measures Agreement creates the 
potential to avoid economic loss from a repeat of the Polestar 
situation in which $9 million of sustainably caught Pollock from Alaska 
was denied port entry in the European Union and Morocco because it was 
carried on an IUU fishing-listed cargo vessel that had come into port 
in Dutch Harbor, AK, because NOAA didn't have the authority to deny the 
IUU fishing-listed cargo vessel port entry.

    Question. A common theme we hear from fishermen as we work to 
reauthorize the Magnuson-Stevens Act is the economic hardships they 
experience when their days on the water are limited due to factors 
beyond their control. How will these agreements help address that 
issue?

    Answer. The North Pacific and South Pacific Conventions, the 
Northwest Atlantic Fisheries Organization Convention Amendment and the 
Port State Measures Agreement will not have an immediate impact on 
fisheries management within the U.S. Exclusive Economic Zone. These 
agreements will provide the United States new tools to improve global 
fisheries governance and management that will ultimately benefit U.S. 
fishers and others working in the fisheries sector by raising the 
standards applied to foreign fishers and markets to those already 
applied in the United States. The Port State Measures Agreement does 
not regulate any fishing at sea but, by requiring parties to conduct 
some level of port inspections, provides a mechanism for monitoring 
compliance with conservation and management measures adopted by coastal 
states and regional fisheries management organizations.
    We have no fishers operating at present in the Convention Areas of 
either the North Pacific Convention or the South Pacific Convention. We 
do have one fishing vessel that operated in the Northwest Atlantic 
Fisheries Organization Convention Area in 2012 and 2013, and two 
fishing vessels have applied to fish in 2014. The Northwest Atlantic 
Fisheries Organization does not regulate fisheries by limiting days at 
sea. Rather, it establishes a total allowable catch for a fish stock 
and then allocates national quotas to its members from the total 
amount. Thus, the Northwest Atlantic Fisheries Organization does not 
regulate fisheries through effort controls such as a limit on days at 
sea.
                                 ______
                                 

          Responses of Adm. Frederick J. Kenney to Questions 
                    Submitted by Senator Marco Rubio

    Question. With the ratifications of the four treaties, the 
``Northwest Atlantic Fisheries Organization'' Convention, the ``North 
Pacific'' and ``South Pacific'' Conventions, and the ``Port State 
Measures'' Agreement, what specific steps would the Coast Guard be able 
to take to combat Illegal, Unregulated, and Unreported (IUU) fishing?

    Answer. General.--International mechanisms, such as these four 
treaties, strengthen governance over fishing activity on the high seas 
assist the Coast Guard by extending authority to board and inspect 
fishing vessels covered by the relevant Convention. Boardings increase 
maritime domain awareness and act to deter illicit behavior through 
fear of being caught.
    NAFO Amendment.--Under the NAFO Amendments the Coast Guard will 
continue to facilitate joint boardings/inspections with Canadian 
Department of Fisheries and Oceans officials as opportunities present. 
These compliance inspections will help to discourage IUU fishing in the 
North Atlantic and ensure the U.S. is meeting enforcement obligations 
under the Convention.
    Port State Measures.--Port State Measures will facilitate close 
coordination between NOAA and the Coast Guard to stem IUU fishing 
activities. These measures will deny access to U.S. ports by vessels 
engaged in IUU fishing except for the exclusive purpose of conducting 
inspections or engaging in other enforcement activities. While the 
implementing legislation seeks to provide NOAA organic authority to 
deny port access, the Coast Guard will be instrumental in facilitating 
U.S. actions. This may include providing advance notice of arrival 
information, tracking vessels of interest or assisting with boardings. 
Without access to ports, vessels engaged in IUU fishing will not be 
able to sell their product or receive logistical support for 
operations. This will force these vessels into ports farther from 
commerce centers and lucrative fishing grounds, and, as a result, will 
likely increase their operating costs. Limiting the ports available to 
these vessels would simplify enforcement by targeting investigations of 
illicit activity in ports known to support IUU fishing.
    North and South Pacific RFMOs.--The Coast Guard will work with 
partners at Department of State and NOAA to ensure the inclusion of 
robust boarding and inspection procedures within both the North and 
South Pacific Regional Fisheries Management Organizations that will 
increase opportunities to board and inspect fishing vessels on the high 
seas, throughout the Pacific Ocean. The establishment of a governance 
scheme in this remote region provides oversight of fishing activity in 
an area not previously covered. The Coast Guard will leverage available 
patrol assets and, to the extent practical, utilize naval vessels of 
opportunity through the Oceana Maritime Security Initiative (OMSI) to 
track and board fishing vessels to combat IUU fishing.

    Question. If the Coast Guard boards a ship which is suspected of 
IUU and finds evidence of human trafficking, what steps can the Coast 
Guard take?

    Answer. The Coast Guard team will investigate, collect evidence, 
and report their findings through the chain-of-command to interagency 
partners, including the Department of State, Department of Justice, and 
other applicable U.S. agencies in accordance with the Maritime 
Operational Threat Response (MOTR) plan. The flag state of the vessel 
has exclusive jurisdiction over offenses committed on board. If the 
vessel is flagged in the United States or is a vessel without 
nationality, the Coast Guard could seize the vessel and coordinate with 
the Department of Justice for prosecution of the offender under 
domestic human trafficking laws. If the vessel is foreign-flagged, 
jurisdiction to seize and prosecute would have to be coordinated with 
the flag state; exceptions include foreign flagged vessels located 
within the U.S. territorial sea or the offense is committed by a U.S. 
national or person with status in the U.S. Exercising jurisdiction over 
a U.S person on board a foreign flagged ship on the high seas would 
still involve consultation with interagency partners through the MOTR 
process. Interagency consultation provides the ability to determine 
whether the United States has an independent basis to exercise 
jurisdiction (e.g., the vessel is in the U.S. territorial sea, it is a 
U.S. vessel or a vessel without nationality, or the offender is a U.S. 
national) or whether the matter will be referred to the vessel's 
cognizant Flag State for action based on exclusive flag state 
jurisdiction over its vessels.

    Question. With the ratification of these treaties, would the Coast 
Guard need additional resources or personnel to assist with U.S 
compliance?

    Answer. Ratification of these four treaties will not require the 
Coast Guard to seek additional resources or personnel to ensure U.S. 
compliance. Enforcement of these treaties will primarily be conducted 
as part of existing efforts on the high seas and outer reaches of the 
U.S. Economic Exclusive Zone (EEZ) by Coast Guard offshore patrol 
assets.
                                 ______
                                 

            Responses of Ambassador Mark Lagon to Questions 
                    Submitted by Senator Marco Rubio

    Question. What current work is being done by the U.S. Government to 
combat human trafficking on fishing vessels?

    Answer. The U.S. Coast Guard and National Oceanic and Atmospheric 
Administration (NOAA) show an acute awareness of criminal and inhumane 
activities in fishing on the high seas, as reflected in their testimony 
in the hearing. For this reason, they join the State Department in 
endorsing the ratification of the Port States Measures Agreement, the 
Conventions on the North and South Pacific Fisheries Resources, and the 
Amendment to the Northwest Atlantic Fisheries Convention the hearing 
addresses--legal instruments the State Department helped negotiate.
    As I spoke to in my written testimony, the Department of State's 
Office to Monitor and Combat Trafficking in Persons (TIP) under my 
leadership from 2007 to 2009 and that of the estimable Ambassador 
CdeBaca since 2009, have increasingly focused on human trafficking in 
the fishing sector. In my testimony, I highlight how Thailand 
represents a special hazard zone for human trafficking in illegal 
fishing. Well, during my tenure it became apparent that human 
trafficking was flourishing in the seafood processing sector on 
Thailand's soil; I met female victims from Myanmar in person near Samut 
Sakhon. I surprised my fellow Republicans by standing with the leader 
of the Solidarity Center, the AFL-CIO affiliated democracy-promotion 
organization funded by the National Endowment for Democracy, at the 
public release of their report on forced labor in the seafood sectors 
of Thailand and Bangladesh. The TIP Office between 2007 and 2009 also 
helped highlight boys trafficked in fishing in the Great Lakes of 
Africa. Ambassador CdeBaca's team has taken this focus on fishing 
farther, including that on the high seas, as seen in annual 
``Trafficking in Persons (TIP) Reports'' in his tenure.
    By highlighting this issue in the TIP Report, in what happens to be 
the most successful public diplomacy instrument in the State 
Department's toolbox today, thanks to the Congress handing the 
Department that tool, the concern of states about what I call in my 
testimony ``governance black holes'' has increased. The TIP Report is 
just the beginning of the TIP Office's work, as it is followed by 
quiet, intense diplomacy to urge governments to take the steps needed 
to objectively merit a higher ranking. What the U.S. urges in that 
diplomacy is plainly spelled out in a paragraph labeled 
``Recommendations'' in each country profile in the TIP Report. As 
important as this public and traditional diplomacy is the assistance 
the U.S. gives to NGOs and international organization agencies to build 
nations' will and capacity to fight trafficking.
    Trafficking on the high seas is not so easy to combat, nor to 
underwrite the work of NGOs and international organizations to combat, 
absent treaties placing more responsibility on port states and also of 
to-date rather hands-off flagging states of fishing vessels. U.S. 
public and traditional diplomacy has boosted the potential for 
international support for these treaties. U.S. ratification would be an 
even more powerful symbolic measure to encourage other nations to 
become parties, and in the most important case of the PSMA, allow it to 
reach the threshold of parties needed to come into force.

    Question. Your testimony highlights a few countries which have had 
evidence of human trafficking in the illegal fishing industry.

  <diamond> Are there certain hot spots for this specific type of 
        trafficking?

    Answer. The Conventions on the North and South Pacific Fisheries 
Resources, as two instruments the hearing addresses, highlight two such 
hot spots. My testimony alludes to a Korean vessel in Northeast Asia. 
Yet, the South Pacific and the region nearby Southeast Asia are 
particularly problematic. This is the reason for special focus in my 
written testimony on Thailand, and the trafficking of Thai, Cambodian, 
and Burmese workers. (And please note that Thailand this year faces the 
time limit on a Tier 2 Watch List ranking under the Trafficking Victims 
Protection Act as amended in 2009, just as Russia, China, and 
Uzbekistan did last year. Thailand would be a worthy focus of the 
committee's oversight this spring and summer.) The combination of 
economic desperation, migrant workers' ambitions to send remittances 
back to their family, corruption, greedy ship proprietors sneaking into 
other nations' territorial waters, and the ungoverned space of the high 
seas make Southeast Asia a breeding ground for netting people for 
slavery as well as netting sealife with no regard for sustainability.
    Another large region with pronounced problems is the African 
Continent. I have spoken of boys fishing on Lake Volta. But beyond 
inland bodies of water, off the shores of much of western and eastern 
Africa, thriving corruption and piracy and lacking governance and 
monitoring make them hot spots too.
    It is important to recall that much of the fishing industry is 
decent and above-board, as represented by those testifying beside me. 
It is for this very reason that those playing by the rules ought not 
have their reputations and competitiveness undercut by illicit fishing 
vessels who also dehumanize fisherman.

  <diamond> Is there a ``typical'' type of trafficking victim for this 
        crime?

    Answer. There are three categories of ``targets'' for human 
trafficking: (1) migrant workers who are undocumented, and through 
force, fraud, and coercion become victims; (2) migrant workers who are 
legal guest workers lied to about the work they will get, purposefully 
put deeply into debt, and relieved of their passport and papers; and 
(3) those victimized in their own nation or by their own nationals. It 
was a priority of my time as Ambassador at Large to Combat Trafficking 
in Persons that the Office I supervised would call attention to just 
how much of human trafficking counterintuitively is in the latter two 
categories.
    Human trafficking in legal fishing appears to occur most in Group 
#1 and Group #3. U.N. Office on Drugs and Crime (UNODC), International 
Organization for Migration (IOM) and press reports I highlight in my 
testimony give an accounting of exploited workers desperate for better 
lives for themselves and their families, but just risk-taking enough to 
be lured into illegal fishing. Some cases involve fisherman being 
violently exploited by nationals of their own country.
    Most significant in the profile of a ``typical'' victim are (1) his 
or her needs and dreams to which a trafficker appeals, (2) methods of 
recruitment, and (3) means of exploitation and abuse.
    First, the victims are impoverished, and willing to take on dirty 
and dangerous work in order to make a living for themselves and 
relatives.
    Second, unregulated recruiters lie about the pay, safety of the 
fishing conditions, legality of standards and location of fishing, and 
the ability to leave the job.
    Third, exploitation sometimes involves debt bondage (an 
insurmountable debt owed to a recruiter or to the fishing 
``enterprise'' for the privilege of being placed in work which will 
amount to forced labor). Victims interviewed in Southeast Asia note 
being caught on boats unmonitored by any law enforcement or labor 
inspectors for up to 2-3 years, excruciating hours, lack of medical 
care, ill fisherman thrown overboard, and punitive beatings and even 
murder.
    If the treaties this hearing addresses could shed sunlight on this 
ungoverned zone, and even marginally reduce this dehumanization, it is 
well worth the minimal cost to the United States to ratify them. I 
surmise they will actually do a good amount to reduce this 
dehumanization.
                                 ______
                                 

               Letter Submitted on Behalf of the Federal 
                  Law Enforcement Officers Association

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Letter Submitted on Behalf of the Joint Ocean Commission Initiative

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Letter Submitted on Behalf of Various Stakeholders 
                  Urging Ratification of the Treaties

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  [all]
</pre></body></html>
